                              SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-I-13-30A                                   Office of Inspections                                       June 2013




                  Inspection of
       Embassy Rabat and Consulate General
              Casablanca, Morocco




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

      Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

      Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

      Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                        ii
                           SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED


                                  Table of Contents
Office of Inspector General                                   ii
Key Judgments                                                 1
Context                                                       2
Executive Direction                                           3
  Consulate General Casablanca                                3
  Interagency Coordination                                    5
  Rightsizing and Consolidation                               6
  Public Diplomacy                                            7
  [Redacted] (b) (5)
                                                              7
  First- and Second-Tour Professionals                        8
Policy and Program Implementation                             9
  Political Section                                           9
  International Narcotics and Law Enforcement Section        10
  Economic Section                                           11
  Public Affairs Section                                     13
  Consular Operations                                        16
Resource Management                                          21
  Management Section                                         21
  Mission Policies                                           22
  New Embassy Compound                                       22
  Human Resources                                            23
  Equal Employment Opportunity and Federal Women’s Program   25
  Financial Management Office                                26
  General Services                                           28
  Facilities Management                                      30
  Information Management                                     32
Quality of Life                                              36
  Employee Association                                       36
  Community Liaison Office                                   37
  Medical Unit                                               39
  Schools                                                    40
Management Controls                                          41
List of Recommendations                                      42
List of Informal Recommendations                             46
Principal Officials                                          49
Abbreviations                                                50




                                     iii
                         SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Key Judgments
      Consolidation of Consulate General Casablanca’s operations in Embassy Rabat, which is
       located less than 60 miles away, would result in greater efficiencies, cost savings, and
       improved security.

      The new embassy compound (NEC) in Rabat, scheduled to begin operation in March
       2015, is not designed for a consular section; the Department of State (Department) will
       have several excess properties after 2015 that it could exchange for property near the
       embassy on which to build a consular annex.

      The embassy had serious management control deficiencies but did not mention them in
       the 2012 chief of mission statement of assurance.

      The embassy is not adhering to the Department’s visa referral requirements.

      Interagency oversight and coordination is inadequate, particularly with regard to export
       promotion and commercial advocacy.

      The embassy does not have a structured first- and second-tour (FAST) officer
       professional development program for Rabat and Casablanca.

      Housing and motor vehicles policies at the embassy and consulate general are not
       consistent and need to be consolidated.

      Local employees are dissatisfied with the calculations used to determine the amount of
       tax withheld by the embassy. The Department should conduct a review and take
       appropriate steps consistent with Moroccan law.



The inspection took place in Washington, DC, between January 2 and February 1, 2013; in
Rabat, Morocco, between February 6 and 25, 2013; and in Casablanca, Morocco, between
February 11 and 15, 2013. [Redacted] (b) (6)




                                       1
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Context
       Morocco lies on the northwestern corner of Africa and shares a long border to the east
with Algeria. It has a population of more than 32 million and a 2011 gross national income of
$2,970. Tourism earns the most foreign exchange, followed by remittances from abroad and
exports of textiles and phosphates. U.S. interests center on Morocco as a reliable strategic partner
and on Morocco’s democratic stability and reform.

        Morocco gained independence from France in 1956 and is a constitutional monarchy. In
1999, King Muhammad VI succeeded to the throne and the human rights situation began to
improve. The king allowed limited democratic reforms after demonstrations in February 2011
but retains ultimate authority. There has been unrest in a few cities, but overall Morocco has
experienced comparative stability in a region where Arab Spring uprisings have toppled regimes.
The moderate Islamist Justice and Development Party won the parliamentary election in 2011.
The party is led by Prime Minister Benkirane, who has promised political and economic reforms,
which the United States has encouraged, but implementation has been slow.

         Morocco occupied the Western Sahara in 1975, following Spain’s withdrawal. The
United States does not recognize the annexation, and the status of the Western Sahara remains
unresolved. There has been a United Nations-monitored ceasefire for two decades between the
Polisario and the Royal Moroccan Armed Forces. Algeria gives refuge and support to Polisario
fighters. Relations between the two states remain stagnant largely because of the conflict.

       Casablanca, Morocco’s largest city, suffered a terrorist attack in May 2003 and an
attempted terrorist attack in April 2007 that resulted in the temporary closure of the consulate
general. Bilateral cooperation on counterterrorism and law enforcement is strong. Morocco is a
major non-North Atlantic Treaty Organization ally and currently holds a nonpermanent seat on
the United Nations Security Council. It participates in several United Nations peacekeeping
operations.

         A bilateral free trade agreement was implemented in 2006, which increased trade and
encouraged new foreign investment. U.S imports from Morocco were just under $1 billion and
U.S. exports were about $3.5 billion in 2011. The United States is Morocco’s sixth largest
trading partner. The first bilateral strategic dialogue occurred in September 2012. The United
States has supported civil society and promoted democracy through the Middle East Partnership
Initiative. A 5-year Millennium Challenge Corporation (MCC) compact provided $697 million in
grants and expires in September 2013. Morocco is eligible for a new compact. U.S. Agency for
International Development (USAID) assistance for Morocco in FY 2012 was $19 million; other
foreign assistance totaled $22.2 million.

        The embassy and consulate general have 420 employees, including 137 U.S. direct hires,
of which 82 are Department employees. A new embassy building now under construction is
scheduled to begin operations in March 2015. Consulate General Casablanca is less than 60
miles from Rabat. After the inspection, construction of a new consulate compound (NCC) is now
scheduled for 2017. The Office of Inspector General (OIG) team focused its inspection on
Consulate General Casablanca, interagency coordination in Embassy Rabat, and mission internal
management controls.

                                        2
                           SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


Executive Direction
        Mission Morocco, which consists of Embassy Rabat and Consulate General Casablanca,
is led by a noncareer, first-time Ambassador in his fourth year, an experienced deputy chief of
mission (DCM) in her third year, and a first-time principal officer in his second year at post.
Because of lengthy staffing gaps in the management section over an 11-month period, the DCM
functioned as the management counselor for a good part of her tour. In that capacity, she dealt
with an understaffed and often underperforming management section.

       The Ambassador entertains frequently, travels widely, and endeavors to maintain a high
and recognizable profile with Moroccan society, particularly with the political and social elite
who shape and manage Moroccan views and relations with the United States. The Ambassador,
DCM, and principal officer are attentive to the security and welfare of American citizens in
Morocco.

Consulate General Casablanca

        [Redacted] (b) (5)




        Embassy Rabat argued in its October 30, 2012, cable for acceleration of construction of a
NCC in Casablanca and for a compound that would include space for an American Center. The
embassy is in the process of purchasing land in Casablanca for a NCC but has not finalized the
purchase. The current Capital Security Construction Program has a NCC in Casablanca listed as
an out-year project beyond FY 2018. The last published (FYs 2010–15) Long Range Overseas
Building Plan prepared by the Bureau of Overseas Buildings Operations (OBO) estimates the
cost of a Casablanca NCC to be $170 million: $45 million for the site and development, $119
million for the project itself, and $6 million for value-added tax.

         In the meantime, the Department is exploring the possibility of placing an 8-person
Marine security guard detachment in Casablanca. The estimated initial setup and first-year
operating cost of the new detachment is approximately $2 million, which includes costs for
facility startup, short-term residence lease, equipment, and International Cooperative
Administrative Support Services (ICASS) payments. These costs do not include immediate
facilities enhancements for Post One, other needs, or construction of a residence for the Marines.
It also does not include costs borne by the Marine Corps. In anticipation of a Marine security
guard detachment, the embassy is considering requesting the establishment of three U.S. direct-
hire positions in Casablanca (at a cost of $1.76 million). The Department is also contemplating
costly investments in security upgrades to the existing compound, American Center, and consul


1
 Cable 12 Rabat 287, dated October 30, 2012.
2
 12 Foreign Affairs Handbook (FAH)-5 H-041 defines a clear zone as ―a 20-ft area, standing inward from the
protected side of the perimeter barrier (of an embassy compound), which is free of any auxiliary structures, parking
areas, or other man-made features.‖
                                             3
                                SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

general residence. The presence of a Marine security guard detachment and these upgrades will
not resolve setback and clear zone vulnerabilities.

        Constructing a NCC in Casablanca would not be a cost-effective or efficient use of
financial and human resources. The OIG team found no compelling policies or programmatic
reasons to maintain a consulate general in Casablanca. Closing the consulate general in
Casablanca would generate financial and human resources savings that could be better used
elsewhere. Casablanca is less than 60 miles from Rabat. The embassy could pick up the
workload and 10 U.S. direct-hire positions if the consulate general were closed and consular
operations relocated to Rabat. Closing the consulate general could also eliminate five U.S. direct-
hire positions for a savings of more than $2.5 million per year in recurring costs. Offsetting the
savings of closing Casablanca, however, would be the cost (unknown at this time) to construct a
new consular annex in Rabat, which would have to be on property adjacent to the NEC.

        Consulate General Casablanca provides all consular services for Morocco. A NEC in
Rabat, now under construction, is scheduled to open in March 2015, but its design did not
include space for consular operations. The OIG team could find no documentation that the
Department considered the option of moving consular operations to Rabat when it developed
plans for the NEC. There are suitable properties for a consular annex adjoining the NEC. The
Department owns several properties that will be excess after 2015. These U.S. Government-
owned properties include the current chancery and grounds, a large property used by the
Embassy Cooperative Association along with three adjoining houses, the chief of mission
residence, and a house near that residence. It may be possible for OBO to trade some or all these
U.S. Government-owned properties for properties adjoining the NEC where a new chief of
mission residence and a consular annex could be built, which would allow the maintenance of a
single compound.

        Casablanca’s proximity would allow for the transfer of consular operations to the
embassy without significant inconvenience to American citizens or Moroccans seeking consular
services. Slightly less than one-third of the 25,057 Moroccan nonimmigrant visa applicants in
FY 2012 were from Casablanca; many applicants travel to Casablanca from northern Morocco
(north of Rabat), where the bulk of Morocco’s population is located. Some U.S. direct hires and
locally employed (LE) staff members currently commute from Rabat to work in Casablanca.

        The volume and quality of both economic and political reporting would improve if
consolidated in Rabat. The embassy’s economic and political sections are responsible for setting
nationwide targets and coordinating reporting through their respective countrywide reporting
plans. Consulate General Casablanca has one economic officer and one political officer, but
reporting is sparse. The mid-level political officer in Casablanca has nationwide responsibility
for reporting on labor, trafficking, and women’s issues and travels frequently to Rabat for
meetings with central government officials. She produced 10 cables in the 6-month period
ending in February 2013.

       Public diplomacy activities in Casablanca, which is Morocco’s educational, cultural, and
media capital, are already intertwined with those of the embassy and could be managed from
Rabat. A vigorous American Corners connected to an English learning center or a university
would not be difficult to establish and could provide an adequate public diplomacy platform at
considerable cost savings if the consulate general were closed.
                                        4
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        Management and security support for the consulate general has been an endemic
problem. The consulate general has one U.S. direct-hire management officer, one U.S. direct-
hire information management officer, and one U.S. direct-hire assistant regional security officer-
investigator (who is required to spend 80 percent of his time on consular matters), but it relies
heavily on the embassy for management and security support. On average, embassy management
and security personnel spend 340 man-hours per month in Casablanca providing support. At the
same time, the embassy has been struggling to provide adequate management support for Rabat.

        Two other agencies have representation in the consulate general: the U.S. Commercial
Service (one U.S. direct-hire position) and the Department of Homeland Security (two U.S.
direct-hire positions). In the event of closure of the consulate general, the U.S. Commercial
Service would have to move to Rabat or open an office in a commercial building in Casablanca.
One of the Department of Homeland Security positions has responsibilities for customs and port
security and one for immigration and visa security. The latter would likely relocate to Rabat if
consular operations were consolidated in the embassy. Relocation of U.S. Commercial Service
and Department of Homeland Security personnel in Casablanca to another site would provide an
opportunity to improve security.

       The embassy is concerned that closure could evoke a negative political reaction from the
Moroccan Government and public. Similar concerns arose in 1989 when Consulate General
Tangiers closed, which at the time was the oldest U.S. diplomatic mission in the world. Effective
diplomacy will be important to manage the impact of closure on bilateral relations, but the
challenge does not appear unmanageable.

Recommendation 1: The Bureau of Near Eastern Affairs, in coordination with Embassy Rabat,
the Bureau of Overseas Buildings Operations, and the Under Secretary for Management, should
close Consulate General Casablanca (Action: NEA, in coordination with Embassy Rabat, OBO,
and M/PRI)

Recommendation 2: The Bureau of Near Eastern Affairs, in coordination with Embassy Rabat
and the Bureau of Overseas Buildings Operations, should identify and procure suitable property
adjacent to the new embassy compound for the construction of a consular annex. (Action: NEA,
in coordination with Embassy Rabat and OBO)

Interagency Coordination

        Interagency coordination has been a challenge for the embassy, with nine U.S.
Government agencies represented in Morocco. Two agencies, the U.S. Commercial Service and
Department of Homeland Security, are located solely in Casablanca; the USAID mission and
MCC have offices in Rabat but not in the chancery. The Ambassador and DCM use a weekly
country team meeting that the principal officer and agency heads from Casablanca attend, as well
as issue-specific working groups, to coordinate the various offices and their often overlapping
program funding streams in foreign assistance, law enforcement, and counterterrorism. The
Ambassador has delegated the bulk of interagency coordination to the DCM. Interagency
working group meetings are infrequent, and written agendas and notes of meetings are not
regularly produced. The DCM keeps informed of agency operations through regular weekly,
biweekly, or monthly one-on-one meetings with section and agency heads. The Ambassador

                                        5
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

rarely attends interagency working group meetings. He has regular meetings with some, but not
all, of the non-Department agency heads.

        Coordination is particularly lacking in commercial advocacy and export promotion. Lines
of responsibility and authority for these portfolios are often blurred between the senior U.S.
Commercial Service officer in Casablanca and the economic counselor in Rabat. There is no
commercial advocacy working group that includes all stakeholders. An export promotion and
commercial advocacy working group would enhance coordination among the economic section,
the U.S. Commercial Service office, the Foreign Agricultural Service, the Office of Security
Cooperation, and USAID and would increase the effectiveness of export promotion and
commercial support efforts. It would also be consistent with the Department’s economic
statecraft initiative and the President’s National Export Initiative.

Recommendation 3: Embassy Rabat should establish an interagency working group on
commercial advocacy and export promotion. (Action: Embassy Rabat)

Rightsizing and Consolidation

        Growth in U.S. direct-hire staffing and the embassy’s decision to outsource maintenance
are straining the capacity of ICASS staff to meet the demand for services. In addition, the
embassy risks exceeding the capacity of the NEC if it does not monitor and manage mission
growth. Department and other Washington agencies regard Morocco as a potential hub for
regional operations, which contributes to increased mission staffing.

        The Department last conducted a rightsizing review for Mission Morocco in 2006, which
was updated in 2008 and again in 2009. Another rightsizing review is scheduled for mid-2013,
which will allow the embassy to review staffing and planned growth in advance of the move to
the NEC. There are currently no National Security Decision Directive 38 position requests active
for Morocco, but several are in the preliminary discussion stage, including a general services
officer for Casablanca and additional security personnel for the consulate general. Because of the
proximity of Rabat and Casablanca, the most efficient approach is for them to share
administrative services.

        From 2009 to 2013, the number of U.S. direct-hire positions grew from 87 to 103. The
Ambassador has provisionally approved four desks in the NEC for the Drug Enforcement
Administration, which plans to open an office concurrently with the move to the NEC. The
Ambassador and DCM have exercised their National Security Decision Directive 38 authority to
question some requests, especially when they appeared to duplicate existing programs or could
not be accommodated in the existing office space. For example, the Ambassador denied a request
from the Bureau of Counterterrorism to open an office in Rabat, arguing that its proposed
functions duplicated existing mission programs.

        The consolidation of administrative services with USAID has progressed satisfactorily
and recently extended to motor pool operations and warehousing. USAID employees will move
into the NEC concurrently with other embassy staff in 2015. The mission has determined that
additional ICASS staff positions are necessary to provide satisfactory administrative services. In
addition to 9 maintenance personnel requested for the new embassy, the ICASS council has
identified 13 positions needed in the facilities maintenance office as part of the move to the
                                        6
                           SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

    NEC. However, the embassy lacks a plan to consolidate ICASS and USAID information
    technology and human resources services, which are the two major areas where consolidation is
    still pending.

    Recommendation 4: Embassy Rabat, in coordination with the Office of Management Policy,
    Rightsizing and Innovation, should use the rightsizing exercise and report to prepare a plan for
    adjusting International Cooperative Administrative Support Services positions, with the goal of
    consolidating information technology and human resources services with those of the U.S.
    Agency for International Development when the embassy relocates to the new embassy
    compound. (Action: Embassy Rabat, in coordination with M/PRI)

    Public Diplomacy

            The Ambassador exercises his responsibility to ensure that public diplomacy funds are
    used appropriately. Specifically, he has asked to review and approve all expenditures over
    $25,000. His questions about the appropriateness of certain types of programming have created
    tension with the cultural affairs unit. To forestall potential problems or misunderstandings, the
    public affairs officer instituted monthly meetings between his section and the Ambassador to
    discuss upcoming programs and expenditures. The Ambassador has never blocked a grant and
    willingly participates in programs, [Redacted] (b) (6)




[Redacted] (b) (5)




                                            7
                               SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED
[Redacted] (b) (5)




      First- and Second-Tour Professionals

              There is no structured FAST professional development program with written goals and
      objectives in Rabat or Casablanca. The roles and responsibilities of the DCM and Casablanca
      principal officer are not established. The DCM organized an October 2012 meeting with all 10
      FAST officers from Rabat and Casablanca, which was the only meeting with FAST officers that
      year. The DCM reviews all generalist FAST officers in Rabat, and the principal officer reviews
      FAST officers in Casablanca. The principal officer in Casablanca also met in October 2012 with
      the Casablanca-based FAST officers. It has been a challenge for the FAST groups to find time to
      meet and coordinate activities, especially for consular officers in Casablanca. Creative use of the
      digital video conference link could alleviate this problem. The DCM has given some FAST
      officers in Rabat opportunities for professional development, including rotations among sections,
      control officer duties for visitors, representational event attendance, and note taking. The DCM
      provided representational funds to organize a reception by FAST officers for Moroccan and
      other diplomatic counterparts. FAST officers would welcome more support from the DCM,
      including brown bag luncheons with senior non-Department agency heads.

              FAST officers have differing understandings about whether they were permitted to attend
      country team meetings, and there is no schedule for them to attend on a rotational basis. Some
      FAST officers have de facto mentors, such as their section heads; others FAST officers, such as
      the office management specialists, do not. The group has not discussed with a senior officer the
      process of bidding and evaluations. In Casablanca, the principal officer mentors FAST officers
      and held a session with them on bidding for mid-level positions. The principal officer has
      occasional lunches with FAST officers at the consulate general.

      Recommendation 5: Embassy Rabat should establish first- and second-tour professional
      development and mentoring programs for Rabat and for Casablanca. (Action: Embassy Rabat)




                                              8
                                 SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Political Section

         The political section effectively pursues major U.S. foreign policy objectives and morale
is fairly good. It is complemented by a variety of personnel exchanges from Washington offices,
employed eligible family members, temporary duty staff, and interns. The section has the lead
embassy role in meeting two of the mission’s goals: political reform, good governance and
citizen participation, regional stability, and countering transnational threats. It follows the
internal politics of Morocco carefully and does a fair job of reporting on human rights,
counterterrorism, and Western Sahara issues. The section also supports the bilateral strategic
dialogue. Washington end users would like more frequent, timely, and forward-looking
reporting. The volume of reporting for a 4-officer section is low, with only 34 substantive
reporting cables produced over the 6 months prior to the inspection. The political officer in
Casablanca drafted 10 reporting cables in a 6-month period ending in February 2013. The
Ambassador, DCM, and Casablanca principal officer had not authored a reporting cable.
Political topics of interest to the Department include internal politics, regional relationships, the
rule of law and judicial reform, human rights, and terrorism. The section estimates it spends 25–
30 percent of its time supporting high-level visits. Programmatic activities also take away from
section reporting. These activities include nominating candidates for Washington-sponsored
exchange programs and monitoring small grants from several Department bureaus, such as the
Middle East Partnership Initiative. The section reports by cable and regular email, but rarely uses
record email, even when conveying information that should be preserved. Mission Morocco’s
political reporting output could be increased with existing staff.

       Informal Recommendation 1: Embassy Rabat should require that the political section
       discuss with the deputy chief of mission which cables could be approved by the political
       counselor without deputy chief of mission review.

Political-Military

        The political section’s deputy ably coordinates political-military affairs with the Defense
attaché office and the Office of Security Cooperation. The DCM meets jointly with the three
offices on a weekly basis for further coordination. The section and the Defense attaché office
coordinate on visits to Western Sahara, which the Ambassador must approve. The political
section played a supportive role in the resumption of bilateral negotiations on a new Status of
Forces Agreement with Morocco.

        Foreign military sales since the program started in the 1970s total $4.8 billion, including
more than $3 billion in the past 5 years, mostly in the sale of F-16 aircraft. U.S. firms remain
competitive for pending sales. The political section works effectively with relevant embassy
offices to vet candidates under Leahy Amendment requirements for military and other assistance.

Counterterrorism and Countering Violent Extremism

       In September 2012, the embassy created a counterterrorism and countering violent
extremism working group cochaired by the political section deputy and a USAID officer. This

                                         9
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

working group has focused on these issues, including the identification of all U.S. funding
sources that can be tapped for use in Morocco. The working group has met twice—in November
2012 and January 2013. It plans to produce a written strategy paper. The political section also
provided support for two recent meetings of the multilateral Global Counterterrorism Forum in
Rabat.

Law Enforcement

        The embassy’s law enforcement working group includes all relevant embassy offices,
sets an agenda, meets roughly quarterly, and keeps minutes. The offices try to avoid duplication
of effort, including those for training programs. The DCM chairs the working group and the
regional security officer coordinates its activities. Overall law enforcement coordination appears
adequate.

International Narcotics and Law Enforcement Section

        The international narcotics and law enforcement section consists of one U.S. direct-hire
officer and one LE staff member who ably coordinate U.S. assistance to Morocco in the fields of
antiterrorism, international narcotics and law enforcement, judicial reform, and anticorruption.

        The Department of Justice, Office of Overseas Prosecutorial Development, Assistance,
and Training, has an attaché assigned to the embassy who reports to the DCM through the
international narcotics and law enforcement section chief. He attends country team meetings, as
well as the international narcotics and law enforcement chief’s biweekly meetings with the
DCM. The two officers regularly attend political section staff meetings. For FYs 2008–12,
annual authorizations for the international narcotics and law enforcement section varied between
$0.5 million and $1.5 million. The section will oversee the obligation of a special disbursement
of $7.5 million from the Middle East Response Fund in FY 2013, with little likelihood that the
special funds will be increased in future years. The response funds will likely run out near the
end of FY 2016.

        Section staffing is not adequate to manage the large but likely temporary levels of
assistance to Morocco over the next several years. The international narcotics and law
enforcement section is considering hiring an eligible family member to avoid the creation of an
expensive permanent U.S. direct-hire position and allow for downsizing in the future when
funding levels decline. Such a position could also provide backup in the absence of the U.S.
officer, eliminating the need for someone from the political section to fill in during international
narcotics and law enforcement section chief absences. The OIG team concurred with that course
of action.

        Washington agencies would appreciate more reporting on the high-profile programs of
judicial reform and anticorruption, which are among the mission’s strategic goals. However, the
section devotes almost all its time to programmatic activities and rarely sends reporting cables to
Washington.




                                        10
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Economic Section

        The economic section provides good programmatic support to various Washington
programs, reports on socioeconomic developments, carries out a heavy commercial promotion
workload, and represents U.S. interests in trade. The section chief provides minimal guidance to
the FAST economic officer in Casablanca whose performance he reviews. The section promotes
the strategic mission goals of economic growth and regional integration. It effectively uses its
representational funds with a focus on economic growth and reform, trade liberalization and
regional integration, science and technology, and entrepreneurship. The section’s deputy
effectively supports the Department trade-related environmental cooperation programs.

        The volume of economic reporting over the past 6 months was low, with only 14
reporting cables from 3 reporting officers. Increased forward-looking reporting on a timely basis
would enable Washington agencies to track key issues and to benefit from the mission’s analysis.
Programmatic activities, visitors, and a heavy commercial workload have limited economic
reporting. The section also estimates that it spends 20 percent of its time supporting high-level
visitors. These activities, however, do not justify the low level of reporting. The OIG team urged
the economic section chief to discuss with the DCM which cables could be approved by the
economic counselor to speed up the timeliness of the reporting.

       Informal Recommendation 2: Embassy Rabat should develop missionwide reporting
       plans for political, economic, and international law enforcement reporting.

Consulate General Casablanca

        The reporting portfolio of the FAST economic position in Casablanca is not well defined,
and the officer spends considerable time performing staff work such as writing speeches, talking
points, and briefing memos for the principal officer’s economic outreach activities. In the 7
months since she arrived in Casablanca, the economic officer had produced no reporting. This
position would be more productive in Rabat. The transfer of the position would raise the level of
economic reporting and enhance the professional development of the incumbent.

Recommendation 6: Embassy Rabat, in coordination with the Bureau of Near Eastern Affairs
and the Bureau of Human Resources, should request the transfer of the economic officer,
position number 02-980001, from Consulate General Casablanca to Embassy Rabat upon the
departure of the incumbent. (Action: Embassy Rabat, in coordination with NEA and DGHR)

Commercial Promotions

       The commercial service officer, who has Morocco-wide responsibilities, is located in
Casablanca and supported by five LE staff members. In addition to Morocco, the officer also has
responsibility for Algeria. Although the principal officer in Casablanca works closely with the
senior Commercial Service officer, the Ambassador relies largely on the economic section to
support his commercial advocacy and business outreach activities.

        The economic section’s involvement in commercial work exceeds Department economic
statecraft guidelines contained in 12 State 121885, dated December 2012. In particular, the
economic section remains overly involved in commercial disputes involving U.S. firms. The
                                       11
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

division of responsibilities between the economic section and the commercial office is vague and
often depends on whether the embassy’s economic section or commercial office is contacted
first. The OIG team confirmed the involvement of the economic section in taskings on
commercial matters that should have been directed to the senior U.S. Commercial Service
officer.

        The economic section’s involvement in commercial activities detracts from its other
reporting, programmatic, and policy advocacy work. Another consequence is that the current
arrangement between the economic section and the commercial office lessens the ability of the
Commerce Department to bring its considerable resources to bear on export promotion.

Recommendation 7: Embassy Rabat should redefine the responsibilities of the embassy’s
economic section as they relate to commercial work to align them with the Department of State
economic statecraft guidelines. (Action: Embassy Rabat)

Foreign Assistance

        Embassy Rabat oversees the implementation of a number of U.S. assistance programs,
the largest of which is a 5-year $697 million MCC compact that expires in September 2013. The
current MCC compact focuses on policies and sectors identified as constraining economic
growth. In December 2012, the MCC Board invited Morocco to conclude a second compact, but
this could take 2 years to complete.

        Other assistance sources include the International Narcotics and Law Enforcement fund,
the Middle East Partnership Initiative, the Department of Labor, the Centers for Disease Control
and Prevention, and others. The Peace Corps program in Morocco is the second-largest in the
world. In FY 2012, the Department provided small amounts of assistance under the Foreign
Military Financing program ($8 million in FY 2012) and the International Military Education
and Training fund ($1.9 million in FY 2012). Morocco receives significant amounts of U.S.
excess defense articles.

       The embassy regional security office effectively oversees the Anti-Terrorism Assistance
program. This program provides training to Moroccan police to enhance their capabilities to
respond to terrorist threats. Anti-Terrorism Assistance program funding in FY 2012 was
$800,000.

        Although Morocco does not receive large amounts of U.S. foreign assistance other than
from MCC, a wide array of U.S. Government executive agencies fund a plethora of assistance
programs through small grants. Monitoring the performance of local small grant recipients on
behalf of Washington-based agencies imposes a burden on the embassy’s limited human
resources and detracts from reporting and other policy and program priorities.

        The USAID mission director and the economic counselor cochair the embassy’s foreign
assistance working group. The group meets roughly quarterly. Some participants would like
more interactive discussion and the opportunity to discuss future activities. Given the number of
agencies involved in foreign assistance, the working group would be more effective if chaired by
the DCM.

                                       12
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 3: Embassy Rabat should designate the deputy chief of
       mission to chair the foreign assistance working group.

Public Affairs Section

       The public affairs section has a large and experienced staff. Most LE staff members have
worked at the mission for more than 20 years. The section has successfully conducted exchanges
and outreach to groups outside the traditional power structure, including youth. One-third of
Morocco’s first-time cabinet members are alumni of Department exchanges.

        Political stability within Morocco and more positive opinions of the United States than
elsewhere in the region allow for a variety of public diplomacy programs—and some
experimentation. For example, in 2003 the Department piloted the English Access
Microscholarship Program in Morocco that provides English language classes to disadvantaged
13- to 20-year olds. The program has since spread to 84 other countries. The mission frequently
hosts programs sponsored by U.S. embassies in neighboring countries where political conditions
are less stable.

       The public affairs section maintains a publicly accessible library and programming center
in Casablanca, the educational, cultural, and media capital of Morocco. The public diplomacy
operational budget is $2 million, excluding the Rabat-based regional English language officer
and assistant.

Cultural Unit

        The cultural unit ably manages multiple Department-sponsored educational and cultural
exchanges, an active speakers program, and alumni outreach efforts. The cultural affairs officer
focuses primarily on exchange programs, and her deputy focuses on speaker programs and public
outreach. The unit also does exchange work for the Middle East Partnership Initiative. The
cultural affairs officer and the public affairs officer are ex-officio members of the board
overseeing the Moroccan-American Commission for Educational and Cultural Exchange, which
administers Fulbright scholarships in Morocco.

        Last year the section failed to meet Department deadlines for entering nominees for the
International Visitor Leadership Program into the exchange visitor database, which put at risk the
participation of the mission’s nominees. The problem resulted from both unanticipated leave by
relevant LE staff members and incomplete nomination forms submitted by embassy officers.
During the inspection, the unit chief moved up internal deadlines and made her expectations of
nominating officers clearer to provide a stronger management footing.

         Officials in the Bureau of Educational and Cultural Affairs are concerned that the public
affairs section does not exercise sufficient oversight of Fulbright operations, which manages a
student and scholar exchange program budget of $2.25 million (FY 2012). The director’s
contract provides for an annual performance review, but no evaluation has been done since the
director took office over 3 years ago. This omission is troubling in view of questions about the
director’s management of the commission budget.


                                       13
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        The cultural affairs officer is the commission vice treasurer, but she does not fully
understand the complexities of the commission’s budget. She is trying to improve the budget
process, which is vital if she is to provide the required fiduciary oversight. The cultural affairs
office and the section head planned to meet again in March 2013 with a visiting expert from the
Bureau of Educational and Cultural Affairs. The OIG team suggested the section ask the visiting
official to meet also with the full board to try to resolve concerns about the commission’s budget.

Recommendation 8: Embassy Rabat should require public affairs staff members on the board
of the Moroccan-American Commission for Educational and Cultural Exchange to submit to the
Bureau of Educational and Cultural Affairs an evaluation of the performance of the
commission’s executive director. (Action: Embassy Rabat)

        The assistant cultural affairs officer, who has a strong command of Moroccan Arabic and
an energetic staff, has expanded the mission’s outreach to youth and underserved populations.
Senior public diplomacy officials in Washington lauded these programs as innovative. The
public affairs section currently reports on its programs via the Mission Activity Tracker database.
Regular reporting via front channel cables of insights gained by its work with diverse sectors of
Moroccan society would enhance mission reporting and provide Washington with valuable
insights.

       Informal Recommendation 4: Embassy Rabat should include the preparation of
       reporting cables as part of the work requirements of American officers in the public
       affairs section.

Information Unit

        The information unit produces a comprehensive daily summary of reporting from over 50
French and Arabic news sources, including newspapers, magazines, and broadcast and online
media. The unit deputy oversees Rabat’s Information Resource Center and the embassy’s social
media sites, which include Facebook, YouTube, and Twitter. All three sites meet 5 Foreign
Affairs Manual (FAM) requirements for terms of use and privacy standards. Regular updates to
Web postings in English, French, and Arabic keep the sites current.

        The same cannot be said of the embassy’s official Web site, which appears in English,
French, and Arabic. Local content is dated, giving users little reason for a return visit. The Web
site content manager is also partly responsible for conducting social media outreach and
producing original content, including videos. She is not receiving sufficient input from section
colleagues and embassy staff to keep the Web site current. Short entries on the official Web site,
with hyperlinks to longer stories on social media sites, could increase traffic to all Web sites.

       Informal Recommendation 5: Embassy Rabat should require all sections to contribute
       content for the embassy’s official Web site.

Grants Management

        The public affairs section has an active grants program and works with multiple partners
to extend program reach. In FY 2012, the section used $690,000 of its budget on public

                                       14
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

diplomacy grants and prepared grants worth an additional $101,000 on behalf of the regional
English language officer.

       Three Rabat staff members have grants warrants, but the cultural affairs officer does not.
Given the departure of two grants officers within the year and the fact that most grants originate
with the cultural affairs unit, it is important for the cultural affairs officer to have a grants
warrant valid for Morocco. The Foreign Service Institute offers grants training online.

       Informal Recommendation 6: Embassy Rabat should require the cultural affairs officer
       to complete grants training and obtain a grants warrant.

         Grants officer representatives are required to ensure that grants are properly executed and
monitored. A 2012 revision to Grants Policy Directive 16 mandates that for all grants over
$100,000, grants officers must designate a technically qualified grants officer representative
certified by the Bureau of Administration, Office of the Procurement Executive. Most public
affairs section grants are less than $100,000, but the regular transfer of American grants officers
and the need to explain grants terms and conditions clearly in Arabic and French mean that LE
staff members often act as grants officer representatives. Grants Policy Directive 16 also
mandates that all grants officer representatives be certified by June 30, 2013, and that all grants
files contain that certification. Few LE staff members in Morocco have either the necessary
training or certification.

        A review of a sampling of grants files from FYs 2011–12 showed most were in order.
Grants were aligned to mission goals, and folders contained the required documentation. A small
number of files had the wrong citations of the grants statutory authority, and a few lacked
required receipts. The LE staff member responsible for maintenance of grants files is working to
correct the errors noted.

Recommendation 9: Embassy Rabat should require all locally employed staff members in the
public affairs section who act as grants officer representatives to complete appropriate online
grants training courses offered by the Foreign Service Institute by the deadline. (Action:
Embassy Rabat)

Staffing

        With 7 U.S. direct hires, 24 LE staff members, and 1 U.S. local hire, the staffing of the
two public affairs offices in Rabat and Casablanca is large. These figures do not include the
Rabat-based regional English language officer and his LE staff assistant. Operating in two cities,
working in three languages, and hosting programs for other U.S. embassies in the region pose
special staffing needs. The section has not taken a critical look in recent years at staffing levels
and position grades. Doing so may require downgrading, eliminating, or reprogramming some
jobs, particularly in the information unit. For example, there are three grade-10 LE staff positions
in the information unit, only one of which has supervisory responsibilities. In contrast, the single
grade-10 LE staff member in the cultural unit supervises two other employees.

       The OIG team examined position descriptions in the information unit and noted
redundant or overlapping responsibilities among the distribution clerk (position number
C76002), the information clerk (position number 100671), the Information Resource Center
                                       15
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

administrative clerk (position number 100637), the Information Resource Center technician
(position number C73005), and the information assistant (position number100792). At least two
of these positions can be eliminated. The section could consider reprogramming one position to
assist the regional English language officer for Morocco-specific programs, a position that the
former public affairs officer and the former regional English language officer had agreed on but
never formalized.

Recommendation 10: Embassy Rabat should eliminate two locally employed staff positions in
the information unit of the public affairs section. (Action: Embassy Rabat)

        The section does not need an eligible family member program manager assistant
reporting to the public affairs officer (a position that was filled during the inspection). Other
members of the section, both American and LE staff, already perform many of the duties
assigned to the position, including program management, grants monitoring, logistical and
management support, and drafting and editing. Funds allocated for the eligible family member
position could be better spent on programs or needed equipment.

Recommendation 11: Embassy Rabat, in coordination with the Bureau of Near Eastern Affairs,
should eliminate the eligible family member program manager assistant position (number 88-
94037002) in the public affairs section. (Action: Embassy Rabat, in coordination with NEA)

Information Resource Centers and American Corners

         There are Information Resource Centers in both Rabat and Casablanca. The former is
closed to the public but is scheduled to reopen when the mission moves to the NEC; the latter,
located in the American Center in Casablanca, is open to the public. The American Corners in
Marrakech and Oujda have experienced management problems. The one in Oujda recently
presented the most challenges due to the municipality’s refusal to change the director, who
repeatedly has expressed an unwillingness to perform the required responsibilities. The public
affairs section is working on solutions but is willing to close or relocate the Oujda American
Corner if necessary.

Consular Operations

        The consular section, operating solely in Casablanca, is capably led and enjoys good
working relationships with the principal officer, DCM, and Ambassador. The visa unit chief
serves as the section’s unofficial deputy chief. Three FAST officers rotate through the
nonimmigrant visa unit, the immigrant visa unit, and the American citizens services unit. There
are 11 LE staff positions, 2 of which were vacant at the time of the inspection.

        The section chief holds few meetings, although he sees everyone on a daily basis. The
visa unit workspace is very crowded. It is separated from the American citizens services section
and the consular chief’s office by a lobby. Since the last OIG inspection in 2007, the visa unit
added work stations for the assistant regional security officer-investigator and an LE staff
assistant. LE staff members and officers in the visa unit work at two long tables with four seats
on each side. There is no privacy and the work environment is stressful—people sit within 2 feet
of one another. It is difficult to move around because space is so tight, and everyone in the room

                                       16
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

can hear the conversations of others. The visa unit chief does not have an office. Regular section
meetings would improve communication and guidance.

       Informal Recommendation 7: Embassy Rabat should require that meetings be held at
       least monthly for all staff in the consular section.

        The consular chief attends country team meetings in Rabat each Monday. The round trip
takes the consular chief away from the section for at least 5 hours, sometimes more, each
Monday. It is important that the consular chief attend country team meetings, but having him
away from the section for an entire day once a week places a burden on the rest of the consular
staff. The embassy and consulate general have a reliable digital video conference connection.
The OIG team, for example, conducted its town hall meetings with Casablanca staff via digital
video conference from Rabat.

       Informal Recommendation 8: Embassy Rabat should include the Casablanca consular
       section chief in country team meetings via digital video conference when possible.

American Citizens Services

       The bulk of the work in the American citizens services unit consists of passport
adjudication, notarials, and consular reports of births abroad. However, the mission also handles
time-consuming abduction cases. The Department praised the handling of these sensitive cases
and lauded the consulate general’s role in supporting Morocco’s December 2012 accession to
The Hague Convention on the Civil Aspects of International Child Abduction.

        In September 2012, the Morocco Ministry of Justice issued a circular that required
potential guardians of Moroccan children to reside in Morocco. Moroccan law also requires
guardians to be Sunni Muslims. In the past, many parents spent a short period of time in
Morocco, converted to Islam, and were granted guardianship by a court. The prospective parents
then left the country and adopted children in the United States. The new circular has stopped
most adoptions because it appears unlikely courts will now grant guardianship to prospective
foreign adoptive parents. The American citizens services unit has worked with several American
prospective parents to navigate the new regulations.

Training

        The consular section does not have a training program for new LE staff members. Most
employees know how to do their own jobs but are not prepared to back up others. LE staff
members have requested additional cross-training. The consular chief has doubled his funding
request for training. The Bureau of Consular Affairs notes that effective managers make training
a central part of consular work. Some consular sections set aside 1 day per month for training.
The section does not schedule visa appointments on Fridays but has not used this time for
training. The lack of a formal training program impedes employees’ professional development.

        The 2007 inspection report recommended that one of the LE staff members be cross-
trained to assist in the American citizens services unit, but the section has not taken this step. The
Department assigns a high priority to providing services for American citizens overseas. The

                                        17
                            SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

consulate general would be in a better position to achieve this goal if it had an additional LE staff
member trained to provide American citizens services.

Recommendation 12: Embassy Rabat should require the consular section to implement a formal
training program, including cross-training for locally employed staff in the consular section.
(Action: Embassy Rabat)

Visas

        [Redacted] (b) (5)
                                                      Guards verify that applicants have
appointment letters and screen them before applicants cross a four-lane divided street to enter the
consulate general. Most nonimmigrant and immigrant visa appointments are scheduled in the
morning, but the unit processes some applicants in the afternoons. A further complication for
visa processing is that Moroccan law prohibits sending passports through the mail, which forces
applicants to return to the consulate general to pick up their visas in person.

         The unit recently updated its Web site to provide answers to frequently asked visa
questions. Applicants can send in written inquiries, ask questions at the public window in the
afternoons, or make daily telephonic inquiries between the hours of 2 p.m. and 4 p.m. The unit
responds individually to all emails and usually references additional information on the consulate
general’s Web site. This effort to provide customer service takes a toll on the LE staff and is
disruptive and inefficient because of constant interruptions. In the past, the unit offered more
restricted hours for telephone inquiries, but the embassy telephone operator would forward the
calls about visas to the American citizens services unit. The consular section is scheduled to
transition soon to the Bureau of Consular Affairs Global Support Strategy, which will provide
information services for most visa questions. Meanwhile, the consulate general’s workload is
about to increase because the Bureau of Consular Affairs designated the consulate general to
begin processing nonimmigrant and immigrant visas for applicants resident in Libya, effective
March 18, 2013, for nonimmigrant visas and April 1, 2013, for immigrant visas. The OIG team
suggested the embassy reduce the time it accepts telephone inquiries in the visa unit to 4 hours
weekly to improve the unit’s work efficiency.

       Moroccans appear reluctant to use the Web site and often seek confirmation of the
information even after reviewing the Web site. To reduce the number of written inquiries and
improve efficiency, other U.S. embassies have used auto responses for simple questions. For
example, one mission used the auto response for its main mailbox and directed users to another
email address. Casablanca could benefit from adopting a similar approach.

        Informal Recommendation 9: Embassy Rabat should establish an automatic response to
        written inquiries about frequently asked consular questions.

        The embassy is not enforcing the requirements of the Department worldwide visa referral
policy. Other embassy and consulate general offices, including the front office, relay information
about visa cases to the consular section or request special appointments without completing the
required referral form. The consular chief has generally acceded to these requests. Per 9 FAM
Appendix K, the only appropriate means of communicating with the consular section about
individual cases is to use the appropriate referral form. The consular section has provided
                                         18
                             SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

information on the referral system to mission members, including printed cards with information
on how applicants can make appointments, but the problems have continued.

Recommendation 13: Embassy Rabat should reissue the worldwide visa referral policy and
enforce the Department of State requirement that the visa referral mechanism is the only
appropriate method for mission staff to advocate on behalf of visa applicants or to request
appointments for visa applicants. (Action: Embassy Rabat)

        To facilitate compliance with the Department’s visa referral policy and alert mission
management to those who do not comply, the consular chief can provide information on a
regular basis to the DCM, indicating which officers have made a referral and which officers have
relayed visa-related information outside the referral system.

Recommendation 14: Embassy Rabat should provide the deputy chief of mission a monthly
report on all Class A and Class B visa referrals and on all communications outside the referral
system. (Action: Embassy Rabat)

        Often Class B visa referrals are entered incorrectly as Class A visa referrals. FAST
officers have adjudicated visa referrals, although guidance in 9 FAM Appendix K, 202, indicates
that the consular chief should adjudicate Class A visa referrals and a supervisory mid-level
officer should adjudicate Class B visa referrals. The unit has taken steps to correct both of these
deficiencies and has canceled some visa referral appointments when neither the consular chief
nor visa chief was available.

        The embassy’s online guidance indicates that all diplomatic passport holders qualify for
no-fee diplomatic tourist visas. Per 9 FAM 41.26 N1.1 a., not all holders of diplomatic passports
are entitled to a diplomatic type visa. Those who qualify are listed in the Code of Federal
Regulations.3 For example, military officers holding a rank of brigadier general, or above, in the
U.S. Army or Air Force, and naval officers holding a rank of a rear admiral, or above, in the U.S.
Navy may receive no-fee diplomatic visas; other officers may not. As a result, the consular
section may be failing to collect fees to which the U.S. Government is entitled.

Recommendation 15: Embassy Rabat should charge appropriate fees for diplomatic visas and
correct misinformation posted on its Web site. (Action: Embassy Rabat)

       Consular officers struggle to complete reviews of visas issued and refused, as required by
9 FAM 41.113 PN17 and 9 FAM 41.121 N2.3-7. Reviews are time consuming but facilitate
uniform and correct application of immigration laws and regulations.

Recommendation 16: Embassy Rabat should require supervisory officers to complete reviews
of visa issuances and refusals. (Action: Embassy Rabat)




3
    22 CFR §41.26(c)(1)(i) through (c)(1)(xvi)

                                              19
                                  SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Fraud Prevention Unit

        The visa chief serves as fraud prevention manager, with the assistance of one LE staff
member. At the time of the inspection, one of the LE staff members in the nonimmigrant visa
unit had been selected to fill a vacant LE staff position in the fraud prevention unit, but he was
still working part time in the nonimmigrant visa unit. Document fraud is common, and
relationship fraud is prevalent in the immigrant visa unit. The mission has excellent contacts with
local officials who assist as needed. The mission has not completed a validation study on visa
referrals within the past year, as required by the Bureau of Consular Affairs. Validation studies
are important tools to determine the strengths and weaknesses of mission adjudications, and the
visa referral validation study helps preserve the integrity of the referral process.

Recommendation 17: Embassy Rabat should complete and submit the results of validation
studies on student visas and visa referral cases to the Bureau of Consular Affairs, Office of Fraud
Prevention Programs. (Action: Embassy Rabat)

Visas Viper

       Embassy Rabat and Consulate General Casablanca hold joint monthly Visas Viper
meetings but occasionally submits reports on these meetings later than as specified in 9 FAM
40.37 N5.2. Furthermore, the reports do not always indicate who chaired or attended the
meetings, as required in 9 FAM 40.37 N5.1. The OIG team counseled the consular section chief
and DCM on correcting these deficiencies.

Assistant Regional Security Officer-Investigations and Visa Security Unit

        The consular section has excellent relationships with the assistant regional security
officer-investigations and the visa security unit. Consular officers report that the visa security
unit processes cases in a timely manner and provides useful information to the section. The
assistant regional security officer-investigations contributes to mission antifraud efforts but has
averaged only 68 percent of his time on consular work since his arrival in summer 2011. He has
been acting regional security officer on occasion and recently assisted the regional security
officer to address heightened security threats following the attack in Benghazi. The security
threat environment during that period, however, was exceptional. The 2012 memorandum of
understanding between the Bureau of Diplomatic Security and the Bureau of Consular Affairs
requires the assistant regional security officer-investigations spend 80 percent of his time on visa
and passport fraud.

Recommendation 18: Embassy Rabat should require the assistant regional security officer-
investigations in Casablanca to spend 80 percent of his work hours on visa and passport fraud.
(Action: Embassy Rabat)




                                        20
                            SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


Resource Management
                Agency                        U.S.       U.S.            Foreign         Total Total Funding
                                             Direct-    Local-           National        Staff   FY 2012
                                            Hire Staff Hire Staff         Staff
Department of State
Diplomatic and Consular Programs                      51            2              16       69        $3,911,616
ICASS                                                 10           16             135      161        $9,301,500
Public Diplomacy                                       7            1              23       31        $2,044,224
Diplomatic Security                                    3                           18       21        $1,531,654
Marine Security Guards                                 6                            4       10          $191,780
Representation                                                                                           $50,226
OBO                                                    3                            3         6       $3,181,295
Bureau of Consular Affairs                             5                           14        19         $515,695
Recycling                                                                                                 $8,350
Regional English Language Office                       1                             1        2         $243,170
International Narcotics and Law                        1                             1        2         $289,369
Enforcement Affairs
Export Control and Related Border                      1                             1        2                  0
Security Assistance4
Centers for Disease Control and                        1                                      1          $50,000
Prevention
Foreign Agriculture Service                           1                              3       4         $186,555
MCC                                                   2                              4       6         $442,500
U.S. Commercial Service                               1                              4       5         $419,207
Defense Attaché Office                               10                              2      12         $639,995
Department of Justice                                 1                                      1         $713,483
Department of Treasury                                1                                      1          $38,498
Department of Homeland Security                       2              1               1       4         $240,888
Office of Security Cooperation                        7                              6      13       $1,780,000
Foreign Area Officer Program                          4                                      4         $130,902
Force Protection Detachment                           2                              1       3         $220,000
Legal Attaché Office                                  3                                      3         $264,405
Peace Corps                                           4                             2        6       $3,700,000
USAID                                                10                            24       34      $22,500,000
Totals                                              137            20             263      420      $52,595,312

Management Section

        Both the embassy and consulate general have recently experienced lengthy management
staffing gaps, which impaired administrative services. For example, since 2011 six persons have
served as management counselor.



4
 The Export Control and Related Border Security Assistance officer did not start his assignment until FY 2013; the
budget for FY 2013 is $80,000.
                                            21
                                SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        Mission members gave the management section average scores in OIG workplace and
quality of life survey responses. The new management counselor is widely credited by mission
staff with improving some services, but mission members gave low scores to several units, some
of which lack a U.S. direct-hire supervisor. Poor communication between the financial
management unit and general services unit impairs delivery of administrative services. The two
units recently began to hold biweekly meetings to improve communication. The management
team needs to continue to address deficiencies and improve accountability.

        There are critical shortages in LE staff in the general services and facilities maintenance
units. Delays and inefficient services from both units are the most common complaints from
mission customers. The mission relies heavily on contractors to perform services that are
normally provided by the facilities maintenance staff. The OIG team received several complaints
from embassy staff about unsatisfactory performance by contracting companies. A gap in the
Casablanca management officer position has forced LE staff members to take on additional
responsibilities without proper training, resulting in the delay of major security and construction
projects.

Mission Policies

         The consulate general maintains separate motor pool and housing policies distinct from
those of the embassy. Regulations require one combined mission policy. According to 14 FAM
432.5, the ambassador, in consultation with ranking officers of other agencies at the mission,
must establish a missionwide policy regarding business and other authorized use of vehicles. The
local school offers bus transportation to students, but students from the consulate general do not
use this service. Instead, the consulate general provides transportation for children of American
staff without collecting fees. The consulate general’s current practice of providing school
transportation is not consistent with the embassy’s motor pool policy and does not conform to 14
FAM 433.2 and 14 FAM 433.3-4 guidelines on other authorized use of government vehicles.
Employees whose dependents receive transportation from the school may obtain reimbursement
for this cost, and the embassy’s financial management unit can assist employees in this process.

Recommendation 19: Embassy Rabat should establish missionwide motor vehicle and housing
policies consistent with relevant Foreign Affairs Manual guidelines. (Action: Embassy Rabat)

Recommendation 20: Embassy Rabat should require Consulate General Casablanca to collect
fees for school transport. (Action: Embassy Rabat)

New Embassy Compound

        Construction is currently on schedule for embassy staff to move to the NEC in March
2015. A $150 million dollar project, the NEC will house 135 Americans and 149 LE staff
members. Nationals of 17 countries are working on the project. The project manager closely
monitors Department guidelines on trafficking in persons by visiting residences and on-site
locations.

       OBO recommended establishing nine additional facilities maintenance LE staff positions
to maintain the NEC, and the embassy has submitted a request to the ICASS council to fund
these positions in FY 2014. The OIG team concurs with this request.
                                       22
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Human Resources

         The unit provides effective human resources services and is adequately staffed.
Inspection surveys and ICASS gave the unit average scores. Mission LE staff works a
considerable amount of overtime—over $200,000 in FY 2012. The embassy has not made an
effort to determine whether overtime costs could be reduced.

       Informal Recommendation 10: Embassy Rabat should reduce locally employed staff
       overtime.

Official Residence Expense Staff

        The Ambassador, DCM, and principal officer in Casablanca are authorized seven, three,
and four official residence expense staff members, respectively. However, the DCM has five
official residence expense staff. In addition, the Bureau of Near Eastern Affairs asked the
embassy in November 2012 about reducing the Ambassador’s official residence expense staff to
six employees, but the embassy did not respond. The Ambassador has more official residence
expense staff than do other chiefs of mission in Algiers, Tripoli, Tunis, and Beirut. The OIG
team did not receive an explanation for the high level of official residence expense staffing at the
Ambassador’s residence.

Recommendation 21: Embassy Rabat should reduce the deputy chief of mission’s official
residence expense staff to authorized levels. (Action: Embassy Rabat)

Recommendation 22: Embassy Rabat should review official residence expense staff levels and
provide the Bureau of Near Eastern Affairs with a response on reducing the official residence
expense staff levels at the chief of mission residence. (Action: Embassy Rabat)

        Per 3 FAH-1 H-3252.1, agencies abroad should jointly develop and issue a statement
outlining requirements and criteria for hiring official residence expense staff. These statements
must assure that principal representatives treat their official residence expense staff fairly and
provide them employment conditions that conform to local law and prevailing practice in the
host country. Current contracts for official residence expense staff members do not conform to
Moroccan law and prevailing practice with respect to paid sick leave and working hours.

Recommendation 23: Embassy Rabat should develop a hiring and employment policy for
official residence expense staff and require that all employment contracts for official residence
expense staff members conform to Department of State regulations, local law, and prevailing
practice. (Action: Embassy Rabat)

        According to 3 FAM 3257 and 3 FAH-1 H-3252.3, the designated principal
representative may be reimbursed from official residence expense funds for wage and
maintenance payments of household staff. In Rabat, salaries are being paid directly to official
residence expense staff members via direct deposits to their bank accounts. This practice
establishes a direct employee/employer relationship between the embassy and the official
residence expense staff members. Household staff members who work as official residence
expense employees are neither Federal employees nor employees of the U.S. mission. They are
employees of the principal representative in whose home they work.
                                        23
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 11: Embassy Rabat should include in its employment
       policies on official residence expense staff procedures that eliminate a direct
       employee/employer relationship between official residence expense staff members and
       the U.S. Government to include direct salary deposits into their bank accounts.

Locally Employed Staff Position Descriptions

        In both Rabat and Casablanca, inspectors received complaints about outdated position
descriptions and incorrect classification of LE staff. In all of these cases, the responsibility for
maintaining correct position descriptions lies with the supervisor of the unit or the section. A
survey of LE staff would help identify which employees think their position descriptions are out
of date and why. The embassy could then notify supervisors about the need to review and revise
position descriptions as appropriate. The Department requires supervisors to review and certify
employee position descriptions annually.

       Informal Recommendation 12: Embassy Rabat should review locally employed staff
       position descriptions and correct those that are out of date.

        The inspectors also received some complaints from LE staff members about
nontransparent recruiting and hiring practices. The embassy’s intranet site includes a hiring and
recruiting policy (HR 7), but it is not current. Such policies can be controversial and require
frequent explanation, so they need to be reviewed and reissued often and made available to all
employees.

       Informal Recommendation 13: Embassy Rabat should update its locally employed staff
       recruitment and hiring policy so that it is clear and comprehensive and post this policy on
       the mission’s intranet site.

        The management counselor is supported by a U.S. direct-hire office management
specialist. Although the service being performed is necessary, there is no need to have that
service provided by a Foreign Service employee. The duties performed by the office
management specialist could be performed by either an eligible family member or an LE staff
member, thereby putting to better use $570,000 in funding. After the inspection, the embassy
took steps to eliminate the office management specialist position.

Casablanca

        Several LE staff members at the consulate general have multiple responsibilities. For
example, the management assistant is also the human resources assistant and the motor pool
supervisor. This practice is widespread, and many staff members feel overworked as well as
frustrated by their lack of proper training to perform these additional duties.

       Informal Recommendation 14: Embassy Rabat should provide locally employed staff
       members at the consulate general with training commensurate with their performed
       duties.




                                        24
                            SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Post Differential

        Consulate General Casablanca has not completed its post hardship differential survey
report that was due in the Office of Allowances in late 2012. Consulate staff currently receives a
5-percent hardship differential allowance. By failing to comply with this requirement, the
consulate general risks termination of its post differential allowance.

Recommendation 24: Consulate General Casablanca should complete and submit its post
hardship differential survey report. (Action: Embassy Rabat)

Equal Employment Opportunity and Federal Women’s Program

        Rabat and Casablanca have each designated Equal Employment Opportunity (EEO)
counselors. The Rabat EEO counselor conducted sexual harassment training in January 2013 for
the LE staff. EEO guidance and information is clearly posted. There have been no formal EEO
cases in Morocco since 2007, and informal complaints have been handled efficiently. However,
the embassy has not designated LE staff members to serve as EEO liaisons, as recommended by
the Department.

          Informal Recommendation 15: Embassy Rabat should identify and train several locally
          employed staff members as Equal Employment Opportunity liaisons.

       The current EEO counselor, who has also been serving as the Federal Women’s Program
coordinator, will depart soon. The embassy has named, but not trained, her successor. A new
Federal Women’s Program coordinator has not been named.

          Informal Recommendation 16: Embassy Rabat should train the new Equal Employment
          Opportunity counselor.

          Informal Recommendation 17: Embassy Rabat should name and train a Federal
          Women’s Program coordinator.

Casablanca

       Casablanca’s EEO program is inadequate; there are no EEO bulletin boards at the
consulate general or the American Center, where six employees work. In accordance with the Code
of Federal Regulations,5 the consulate general should have an EEO bulletin board and display current
information in a public location for the benefit of all employees.

          Informal Recommendation 18: Embassy Rabat should require Consulate General
          Casablanca to display a bulletin board with current Equal Employment Opportunity
          information in all mission buildings in Casablanca.

       The consulate general’s Federal Women’s Program is nonexistent, and the mission has
not designated a Federal Women’s Program coordinator. Executive Order 11478 and the Code of


5
    29 CFR §1614.102(b) (7)
                                          25
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Federal Regulations6 make the status of women an integral part of EEO. According to 3 FAM
1514.2 b., a mission must announce to all employees a designated Federal Women’s Program
coordinator.

          Informal Recommendation 19: Embassy Rabat should require that Consulate General
          Casablanca implement the Federal Women’s Program and name a coordinator.

Financial Management Office

        The financial management unit received low survey scores but has made progress in
clearing unliquidated obligations. During the inspection, the financial management unit was
supervised by a temporary duty financial officer. Another temporary duty officer will be needed
before the arrival of a permanently assigned financial management officer in mid-2013. The
office is appropriately staffed and relies on the post support unit to process a sufficient number of
vouchers.

International Cooperative Administrative Support Services

       During the inspection, the embassy was conducting the 2013 ICASS services satisfaction
questionnaire. The 2012 results reflected that Rabat and Casablanca had lower scores than the
Bureau of Near Eastern Affairs region or worldwide averages, though better than the 2011
survey scores.

       Rabat has an ICASS council but not a functioning budget committee. Rabat is a standard
ICASS mission and is of sufficient size to warrant a budget committee to facilitate proper review
and management of the ICASS allotment. The establishment and functions of the committee are
discussed in 6 FAH-5 H-222.4.

Recommendation 25: Embassy Rabat should establish an International Cooperative
Administrative Support Services budget committee. (Action: Embassy Rabat)

Accounting and Vouchering

         The embassy has experienced numerous financial problems, including significant
unliquidated obligations, unauthorized commitments, unreimbursed travel advances, and unpaid
utility bills. Backlogs and friction among the management units have decreased under the
leadership of the new management counselor and the current acting financial management
officer. The embassy does not use bulk funding to buy its purchase cards, despite the fact that it
is the Department’s preferred method. Bulk funding simplifies the purchase process and
alleviates the need to seek funding from the bureau or post financial management office for each
individual purchase. Bulk funding is the appropriate mechanism for funding routine purchases of
similar supplies or services such as office supplies.

          Informal Recommendation 20: Embassy Rabat should use bulk funding to buy its
          purchase cards.


6
    29 CFR §1614.102(b)(3)
                                         26
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

       The financial management office does not have a locally employed certifying officer.
Having a local employee perform this task would allow the financial management officer to
concentrate on broader financial management issues. All locally employed certifying officers
must meet the requirements of 4 FAH-3 H-065.2-2.

       Informal Recommendation 21: Embassy Rabat should designate a locally employed
       staff member to be a certifying officer.

Cashiering

         A cashier reconciliation was performed successfully during the inspection. Despite
having operational hours of 11 a.m. to 1 p.m., the cashier was essentially open all day to
accommodate vendors and employees. The mission has not established official hours or guidance
to staff regarding business outside regular cashier hours. Some staff members treat routine
financial matters as urgent and require the cashier to do the same because they do not request travel
advances in a timely manner.

       Informal Recommendation 22: Embassy Rabat should determine appropriate cashier
       hours, disseminate them in a management notice, and enforce them.

        Unlike previous reporting periods, the cashiers did not have anything in transit longer
than 30 days and the subcashier reconciliations were current. Occasional money holder advances
were not outstanding more than 3 business days. Accommodation exchange is performed by a
local financial institution. Rebidding of the bank contract is overdue. Without periodic review of
bank accounts and contracts, the embassy cannot determine whether it has the most beneficial
banking arrangement.

Recommendation 26: Embassy Rabat, in coordination with the Bureau of the Comptroller and
Global Financial Services, should rebid the current banking services contract. (Action: Embassy
Rabat, in coordination with CGFS)

Local Employee Tax Issue

        The inspectors met with a representative group of LE staff members. This group
considers itself a working group instead of an LE staff committee. The committee was disbanded
in 2011 over the decision to withhold employee taxes. According to several LE staff members,
their concern is over perceived unfairness and lack of transparency in the embassy’s handling of
the tax withholding issue. In 2011, the embassy reached an agreement with the Moroccan
Government to withhold taxes from LE staff paychecks, an initiative that many LE staff
members supported at the time. The Under Secretary for Management approved this agreement.
Many employees are dissatisfied with the resulting reduction in their take-home salaries, despite
receiving a wage increase in 2010 designed, in part, to compensate for the withholding. The
Department’s wage freeze has exacerbated the problem.

        LE staff members indicated that they believe that some withholdings, particularly those
on certain allowances, are not required by Moroccan law. A local accounting firm made a
determination for the embassy on withholdings on income that should be nontaxable, and the
embassy has had three different firms review the withholding levels. Given the complexities and
                                        27
                            SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

sensitivity of the issue, the embassy would demonstrate its good faith by requesting that the
Bureau of Human Resources review and approve any changes the embassy adopts based on a
review finding.

Recommendation 27: Embassy Rabat should request a Bureau of Human Resources review of
its withholding of Moroccan taxes and take appropriate steps consistent with Moroccan law.
(Action: Embassy Rabat, in coordination with DGHR)

General Services

        The 2007 OIG report7 detailed communications breakdowns, deteriorating customer
service, and serious lapses in service delivery in the general services unit; many of these
deficiencies still exist. Curtailments, resignations, and reassignments of American officers in the
management section resulted in poor leadership and guidance to inexperienced LE staff and first-
tour American supervisors in the unit. Officers have not adequately supervised the warehouse,
procurement, and property management, leading to vulnerabilities in internal management
controls. Leadership, technical skills, followup, and operational knowledge weaknesses remain
significant. A newly arrived management counselor and two general services officers are helping
the unit address these deficiencies. They need to provide efficient oversight to inexperienced and
poor performers in the general services unit.

Housing

        The general services operations and facilities management operations were unprepared
for a high (65 percent) turnover of American officers during summer 2012. The unit was
understaffed and consequently outsourced the make-ready process without providing adequate
oversight of the housing contractors. In some instances, damage to property during the work
resulted in significant delays and additional repair costs to the U.S. Government. In other cases,
the contractor did not show up to perform the job.

Warehouse

       The warehouse was cluttered, disorganized, and lacked space to store furniture and other
items properly. During the OIG team inspection, the assistant general services officer and staff
reorganized the warehouse and sold approximately $50,000 in surplus and unserviceable items.
Proper housekeeping practices are essential for the protection of supplies in storage. The
existence of poor housekeeping generally reflects negligence and carelessness.

Inventory

        Supply chain management is flawed by the common theme of lack of oversight of general
services operations by a U.S. direct-hire employee. The embassy reported $6,000 of missing
inventory supplies in the FY 2012 Property Management Report. One of the recently arrived
general services officers identified $118,949 of missing property. There is concern that the FY
2012 report was inaccurate due to a large discrepancy. The embassy did not hold a survey board
for the FY 2012 missing items. As the mission’s accountable property officer, the supervisory

7
    OIG Report No. ISP-I-08-04A – Embassy Rabat, and Consulate General Casablanca, Morocco
                                            28
                                SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

general services officer is responsible for the custody, care, and safekeeping of all property under
control of the mission. Preparing accurate survey reports and documenting inventory shortages
or damages are vital to proper property management and maintenance of internal controls. Per 14
FAM 416.5-1(B) b., when an inventory shortage is found, it is the responsibility of the property
management officer to conduct an investigation to determine what corrective actions are
necessary.

Recommendation 28: Embassy Rabat should convene a survey board to determine the status of
missing property and take corrective actions as necessary. (Action: Embassy Rabat)

Procurement

       In 2008 all but one of the procurement unit’s LE staff members were dismissed for
malfeasance. The unit has not fully recovered. The person selected as LE staff supervisor has no
contracting experience. The LE supervisor’s excessive reliance on her staff for general
procurement information causes tension in the office. Two procurement agents hired in 2011
have not been trained. Two LE staff employees will attend the Commercial Items Acquisition
course at the Foreign Service Institute.

        The unit’s failure to focus on important details of contract management has caused
service delays and frustration within the embassy community. Contracting files were missing
important documents, requiring the current U.S. direct-hire supervisor to scrub systematically the
procurement files to close out completed actions and deobligate long outstanding purchase orders
going back to FY 2008. Estimated values of $14,000 in unauthorized commitments were
discovered during the purging exercise. When calls were made to vendors, the staff discovered
outstanding invoices where services were delivered but payments not made. Another example of
inadequate oversight by the supervisory general services officer is the cancellation of the staff’s
purchase card due to arrears of $42,000. The arrears were paid in full, and the current American
procurement supervisor worked with the Bureau of Administration, Office of the Procurement
Executive, to reestablish the accounts. The current contract officer initiated remedial solutions.

         The mission lacks effective and accountable contract management. U.S. direct-hire
supervisors and LE staff lack the technical knowledge to manage contracts. Failures to define
critical work requirements of a contractor caused the embassy to hire another company to correct
the deficiencies at additional cost to the embassy. Contractors with a record of substandard
performance were solicited for other mission projects. Staff members had difficulty accessing the
database containing the Department’s excluded parties list, although the public affairs section
staff is able to do so. The OIG team urged the procurement unit staff to seek assistance from the
public affairs section in accessing the excluded parties database.

Motor Vehicles

       The motor pool unit received above average scores on the ICASS customer satisfaction
survey as well as on the OIG workplace and quality of life survey. An unwritten policy prohibits
embassy staff from parking personal vehicles on the compound grounds, but some staff members
were exempt from the policy. In accordance with 14 FAM 432.5, the countrywide motor vehicle
policy must provide for uniform, fair, and equitable treatment among mission personnel.

                                       29
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 23: Embassy Rabat should enforce its policy prohibiting
       personal vehicles on the embassy compound.

Facilities Management

        The facilities management units in Rabat and Casablanca are understaffed. The embassy
has requested funding from the ICASS council for 13 additional facilities maintenance positions,
in addition to the 9 positions to maintain the NEC.

        The maintenance staff lacks the technical knowledge to write work statements for
mission construction projects. The facilities manager relies on the mission’s contracting officer
and OBO to assist with writing contract work statements. The embassy outsources gardening
services, roofing repairs, air conditioning services, and a portion of the make-ready process to
supplement the limited staffing of the unit. In many cases, the outsourcing of support services is
counterproductive, because facilities management staff must often complete or repair work done
by a contractor. The embassy and consulate general are unable to oversee contractors with the
current staffing level. The consulate general has one LE staff employee escort and this limitation
has delayed several construction projects. The facilities manager and the NEC project manager
are working together so that the current facilities management staff is trained to maintain the
NEC.

        The mission does not have a preventive maintenance plan for U.S. Government-owned
and long-term leased properties to prevent many of the mission’s maintenance problems. Per 15
FAM 613 b., the mission is required to establish and implement a comprehensive preventive,
routine, and special maintenance program covering all facilities and major support systems.

Recommendation 29: Embassy Rabat should establish a preventive maintenance plan for U.S.
Government-owned and long-term leased properties in Rabat and Casablanca. (Action: Embassy
Rabat)

Safety, Health, and Environmental Management

        An OBO safety, health, and environmental management team visited the embassy and the
consulate general in August 2011. There was an outstanding safety, health, and environmental
management priority one item, which was a repeat finding. The swimming pool at the chief of
mission residence does not comply with Department guidelines in 15 FAM 253.5 requiring that a
barrier at least 4 feet (1.2 meters) high surround the pool. The barrier must be designed so that
there are no footholds or handholds that would permit children to climb or scale the barrier. The
embassy plans to correct the deficiency in May 2013 when the residence is vacant. The OIG
team concurred with the OBO team’s recommendations and counseled the post occupational
safety and health officer to follow up on the outstanding items.

Casablanca

       The facilities management unit has three LE staff members who are responsible for the
maintenance of the consulate building, the American Center, and the official residence and for
minor repairs to short-term leased properties. Some maintenance service is shared by the
embassy’s maintenance staff. Repairs that cannot be carried out by the maintenance staff are
                                       30
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

outsourced. The consulate staff is not trained in contract management and cannot properly
oversee contractor performance. Repairs to the consul general residence were delayed (at a cost
to the Department) due to the poor performance of the contractor that the embassy regularly
employs.

        The OIG team confirmed the findings of a recent OBO team that found four safety,
health, and environmental management high-priority conditions were outstanding, three of which
were repeat findings.

        The American Center is located three-fourths of a mile from the consulate general
compound. The facility is not colocated with the consulate general and does not meet the
standards of the Department and the Overseas Security Policy Board. The American Center also
has no fire suppression capability, which places employees at risk.

       Informal Recommendation 24: Embassy Rabat should install a fire suppression system
       at the American Center in Casablanca.

Tangier American Legation Building

        The Tangier American Legation building is a designated U.S. National Historic
Landmark, the only one located outside the borders of the United States. Responsibility for
monitoring the condition of U.S. National Historic Landmarks falls to the U.S. Department of the
Interior’s National Park Service. According to the National Park Service’s Web site, a survey of
the Tangier American Legation was conducted in 2004.

        The Tangier American Legation is one of the 25 U.S. Government-owned or leased
properties listed on the Secretary of State’s Register of Culturally Significant Properties: ―The
Department’s register is instrumental in promoting the preservation of American history and
architecture. The Department provides professional stewardship, preservation, and maintenance
of unique and significant buildings.‖ No Department employees work in Tangiers.

         The U.S. Government currently leases the Tangier American Legation to a U.S.-based
nonprofit organization, the Tangier American Legation Museum Society. The society’s board is
composed of eminent scholars, diplomats, and personalities from the private sector. The society
exists to support the Tangier American Legation Museum, which operates a museum; research
library; and cultural, educational, and conference center at the Tangier American Legation. The
current institute director is a retired Foreign Service officer. Tangier American Legation
Museum Society raises funds locally to support its museum exhibits and cultural and educational
programs; it does not raise money to pay for maintenance of the buildings. Tangier American
Legation Museum competes for and receives small grants from the Embassy Rabat’s public
affairs section to support its cultural and educational programs.

       In 2010, OBO catalogued the restoration and repair work that is needed at the Tangier
American Legation; the two-volume OBO Historical Structure Report remains the most useful
and authoritative assessment of and starting point for work on the Tangier American Legation.

       In 2011, Embassy Rabat flagged for OBO its concern that one of the structures on the
Tangier American Legation compound—the pavilion—is badly in need of major restoration: the
                                       31
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

roof leaks and has caused serious structural cracks in one of the outside walls. One room of the
pavilion was recently closed to the public because it is structurally unsafe.

       In 2011, the Embassy Rabat facilities maintenance officer developed, with OBO
technical support, a conceptual cost model for a number of repairs to the Tangier American
Legation and submitted it to OBO with a request for funding. The pavilion portion of the 2011
request amounted to $167,903 (excluding design fees). OBO has not provided the funding to
date.

        The OBO cultural heritage office is aware that repairs to the pavilion will be difficult and
potentially dangerous due to the structural problems. In the OIG team’s opinion, the specialized
technical expertise and oversight for such a project is not available on the embassy’s staff.
OBO’s Washington office is best equipped to perform the role of project manager, to include the
possibility of placing a project manager in Tangier to supervise the work for the duration of the
project. OBO Washington’s supervision will facilitate completion of the project in a correct and
safe manner and in compliance with appropriate standards and requirements.

Recommendation 30: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Rabat, should provide funds and project management oversight to repair the structural
damage to the pavilion building at the Tangier American Legation. (Action: OBO, in
coordination with Embassy Rabat)

Information Management

        Embassy Rabat’s information management unit is well managed and meets the mission’s
information processing and communication needs. The OIG survey and inspection confirmed
high customer satisfaction with the unit, which seeks innovative solutions to meet customer
needs. The information management unit in Casablanca meets day-to-day operational needs of
the consulate general, but is not as active in pursuing innovation. The OIG inspectors evaluated
the classified and unclassified information systems, information systems security duties,
communications security, telephone and radio programs, as well as mail and pouch services.

Information Management Initiatives

        In addition to carrying out routine functions effectively, the unit has focused on ways
technology can facilitate diplomacy and reduce operating costs and has a plan to achieve these
objectives. Unit leadership encourages creativity. For example, one initiative is to deploy mobile
devices such as iPads to untether officers from their desks. These devices enable the mission
health practitioner and force protection detachment officers to access resources when out of the
office. Future plans include a teleprompter application for mission officials on iPads and making
the emergency action plan and duty officer handbook available on a mobile device for the duty
officer. The information management officer also plans to host a career seminar and is
considering a potential internship for students at local universities, which could serve as both an
outreach effort to the community and an opportunity for the mission to acquire expertise in
current technologies. The unit is involved in efforts to install eGauges to provide load generation
information on energy consumption to help realize efficiencies. Finally, the unit is working to
improve processes and streamline embassy data collection through a centralized SharePoint
database.
                                        32
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Information Technology Infrastructure

       The embassy’s information technology infrastructure has been adapted to fit an old
building that was not built to current standards. Some components of the information
management program do not comply with Department physical security requirements.
[Redacted] (b) (5)
                       the server room does not have a fire suppression system, and the room’s
temperature sensors are not connected to Post One. The unit mitigated some of these concerns
through procedural measures, based on the OIG team’s advice. Because the embassy will move
to a new compound in March 2015, it would not be cost-effective to carry out physical security
upgrades to the server room.

        The embassy lacks documentation showing the location of the telephone network’s
intermediate distribution frames, which are wall-mounted telephone wiring racks usually located
at key distribution points throughout a building. Having an up-to-date diagram on the location
and area of the building served by the respective intermediate distribution frame facilitates
troubleshooting and maintenance of the telephone network.

        Informal Recommendation 25: Embassy Rabat should document the location of all
        intermediate distribution frames and the respective area of the building served by each
        intermediate distribution frame.

Training

        Two LE staff members originally hired into technical positions now have supervisory
responsibilities. These LE staff supervisors have struggled in their management and supervisory
roles. The information management officer recognized these skill gaps and enrolled the LE staff
members into management training courses.

Radio Network

        Embassy Rabat’s radio network does not have host nation approval to operate on its
normal frequencies, as required by 5 FAM 541 c. The information management unit has
requested approval to operate at specific radio frequencies, but the Moroccan Government has
not responded. The embassy needs to have interference-free radio communication in the event of
a natural disaster or other emergency. The OIG team counseled the embassy to engage more
senior host country officials on its outstanding request.

State Messaging and Archive Retrieval Toolset

       Reporting officers are not using the Department’s State Messaging and Archive Retrieval
Toolset program to create and archive record emails. The information management officer is
aware of the issue and understands the need to train employees in the use of record email and to
promote compliance with Department requirements.

        Informal Recommendation 26: Embassy Rabat should provide training for mission
        personnel to create and administer record emails via the State Messaging and Archive

                                       33
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

       Retrieval Toolset system and hold employees accountable for complying with
       Department of State requirements on its use.

New Embassy Compound Considerations

        The information management unit establishes and maintains OpenNet and telephone
connectivity for the OBO office space at the NEC construction site. In the process of approving
the footprint of information management unit areas in the NEC, the information management
officer recommended consolidation of Department and USAID server rooms in the new facility.
He avoided costs of approximately $120,000 by making arrangements for OBO personnel to do
secure computing at the embassy instead of constructing its own facility. The embassy could
realize cost savings at the NEC with regard to the wiring infrastructure. OBO plans to run an
extra fiber optic cable throughout the infrastructure to each workstation. The Global Information
Technology Modernization program workstations are configured to use category 6 cables, which
will require the purchase of a fiber media converter for each device. In addition, fiber optic cable
requires specialized equipment and expertise. If the embassy used category 6 gigabit Ethernet
cabling rather than fiber optic cable, it could realize an estimated minimum cost savings of
$50,000.

Recommendation 31: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Rabat, should replace the extra fiber optic cable that runs to each workstation in the
new embassy compound with category 6 cables with Ethernet connectors. (Action: OBO, in
coordination with Embassy Rabat)

Consulate General Casablanca

       The information management unit in the consulate general performs adequately. It is
managed by a U.S. direct-hire information programs officer with three LE staff members and
includes an information management unit systems manager, a telephone operator, and a
mailroom clerk. Embassy Rabat’s information management unit provides on-site support as
needed, typically when the information programs officer is absent.

        Although Embassy Rabat’s information management unit provides support to the
consulate general, the information management officer does not have management authority over
Casablanca’s information program officer. Instead, the information program officer reports to the
management officer in Casablanca, and the information management officer is the reviewer. In
practice, the embassy’s information management officer is sometimes excluded from leave and
other management decisions in Casablanca that necessitate the embassy to provide information
management support to the consulate general.

       Informal Recommendation 27: Embassy Rabat should implement procedures for
       Consulate General Casablanca to coordinate with the embassy’s information management
       officer all leave for information management staff in Consulate General Casablanca.

        Consulate General Casablanca does not conduct quarterly emergency destruction drills as
stipulated in 12 FAH-1 H-765. Conducting emergency destruction drills regularly is an important
preventive measure to protect the disclosure of classified information in the event that the

                                        34
                            SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

embassy is attacked or overrun.

       Informal Recommendation 28: Embassy Rabat should require Consulate General
       Casablanca to conduct emergency destruction drills in accordance with Department of
       State requirements.




                                      35
                          SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Quality of Life
       [Redacted] (b) (5)



                                                     Housing selection and housing maintenance
also scored low in the OIG work and quality of life survey. Although there is a bilateral spousal
employment agreement between Morocco and the United States, spousal employment outside the
mission is limited generally to the American schools because Arabic or French language
capability is usually needed to work on the Moroccan economy. Currently, 23 spouses are
employed by the mission. Lack of adequate medical care is an issue of concern for many
families. [Redacted] (b) (5)



                          More than 10 LE staff members are U.S. citizens and have spent years
in the United States. A working group that would include American, Moroccan, and dual
national citizens could bridge the cultural gap, orient new employees, and allow more cultural
integration at the mission. The CLO could also incorporate presentations by Moroccan
employees about Moroccan language and culture into its newcomer orientation program for
American personnel.

       Informal Recommendation 29: Embassy Rabat should form a working group to address
       communications and workplace relations between American and Moroccan staff.

Employee Association

        The Embassy Cooperative Association provides a range of services to the embassy
community in Rabat and consulate general community in Casablanca. The association’s board of
directors includes an employee of the consulate general. The general manager has years of
experience and runs the operation efficiently.

        The association’s charter and bylaws are in good order, but the bylaws provide only for
election to a 1-year term or appointment to fill a board vacancy for the time remaining of an
elected term. As a result, board turnover is high. A longer term in office would provide greater
board cohesion and improve effectiveness.

       Informal Recommendation 30: Embassy Rabat should modify the employee association
       bylaws to allow board members to serve a term longer than 1 year.

        The association board deals with a variety of issues, including the question of expanding
the membership base to include third country diplomats and additional teachers. The most
serious issue facing the association is its future operations after the commissary relocates to the
NEC in March 2015. The expansion of membership, however, would not be consistent with the
fact that the physical size of the commissary will be much smaller at the NEC. The association
will eventually become more service oriented and less sales oriented.


                                        36
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 31: Embassy Rabat should establish a subcommittee of its
       board to determine the future operational priorities of the commissary in light of the
       embassy’s upcoming move to a new location.

        A review of the unaudited, yet most recent, financial statements indicate that the
association is financially healthy and actually accrued a small profit in 2012. One area of concern
(and a money loser) is the rental of temporary duty quarters, managed by the association and
operated with permission from OBO and the Office of Commissary and Recreation Affairs.
Authorization from OBO to operate the temporary housing expired in October 2012, and the
status of the renewal is under review. The facility is losing money and will no longer usefully
serve as temporary housing when the embassy moves to the NEC.

Recommendation 32: Embassy Rabat, in coordination with the Bureau of Overseas Buildings
Operations, should either sell the temporary duty quarters currently maintained by Embassy
Rabat’s employee association or include it in a property swap for a consular annex site. (Action:
Embassy Rabat, in coordination with OBO)

        The OIG team found shortcomings in association board internal controls and information
provided to the community. For example, the board has not reviewed monthly and semiannual
financial statements or internal controls during the year. The association’s SharePoint site has
posted meeting minutes only through June 2011.

       Informal Recommendation 32: Embassy Rabat should instruct the employee association
       board to conduct periodic internal control reviews of the association’s operations and
       update and keep current its SharePoint Web site.

Community Liaison Office

         The CLO scored within the average range in survey questionnaires. The three CLO
employees help new arrivals orient to Morocco and organize activities for community members.
In the past year, the CLO spent at least 200 hours supporting activities that do not benefit the
broader embassy community members, most of it connected to events sponsored by the
Diplomatic Circle and the American International Women's Association, including fundraising.
These activities are not an appropriate use of CLO time. The Embassy Cooperative Association
provides funding for the CLO, but most of this funding is consumed by a welcome dinner each
fall for new embassy arrivals, leaving CLO operations underfunded the remainder of the year.

Recommendation 33: Embassy Rabat should restrict community liaison office involvement and
funding to activities that benefit the entire embassy community, such as newcomers’ orientation
and morale and recreation events and programs. (Action: Embassy Rabat)

       The DCM and CLO are scheduled to meet monthly but in practice meet less often.
Embassy morale is not high and the DCM could be more supportive of the CLO if she solicited
ideas on how the CLO could address community needs and effectively use resources.

       Informal Recommendation 33: Embassy Rabat should schedule biweekly meetings
       between the deputy chief of mission and the community liaison office.

                                       37
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

        The Ambassador’s spouse is the honorary chair of the local nonprofit American
International Women’s Association. Per 3 FAM 4123.4 a., before an employee, spouse, or family
member can serve as an officer, director, or trustee of any private organization, they must receive
permission from both the chief of mission and a Department ethics official (in the Office of the
Legal Adviser, Office of Ethics and Financial Disclosure). The OIG team found no evidence that
formal permission from either the Ambassador or the Office of the Legal Adviser had been
sought for the Ambassador’s spouse to hold this position.

Recommendation 34: Embassy Rabat should suspend the honorary chairmanship of the
Ambassador’s spouse for the American International Women’s Association until it obtains the
required authorizations from the Office of the Legal Adviser. (Action: Embassy Rabat, in
coordination with L)

        The Ambassador’s spouse, in her capacity as the honorary chair of the local nonprofit
American International Women’s Association, hosts an annual Thanksgiving lunch fundraiser at
the official residence for American International Women’s Association local charities. In-kind
donations are solicited from embassy employees for the luncheon. American International
Women’s Association members pay to attend the luncheon, and all proceeds go to American
International Women’s Association charities. Per 2 FAM 962.1-11 a., an ambassador’s spouse
may participate personally in solicitation for local charities only with the concurrence of the
Office of the Legal Adviser, Office of Ethics and Financial Disclosure and the deputy assistant
secretary of the relevant regional bureau. The OIG team found no evidence that the embassy
requested such a review of the fundraising activities of the Ambassador’s spouse.

Recommendation 35: Embassy Rabat should cease all fundraising activities by the
Ambassador’s spouse until it has obtained the required authorization from the Office of the Legal
Adviser and the deputy assistant secretary of the Bureau of Near Eastern Affairs. (Action:
Embassy Rabat, in coordination with L and NEA)

        Embassy employees are asked to donate in-kind time and goods in support of fundraising
by the American International Women’s Association and another local organization (the
Diplomatic Circle). Per 2 FAM 962.1-11, ―the chief of mission may authorize employees,
spouses, and family members at post to solicit in-kind donations on behalf of local charities
without prior authorization by the Under Secretary for Management when the activity is in the
clear foreign policy interest of the United States and there is very little or no appearance of
preference or use of public office for private gain.‖ The OIG team found no evidence that the
Ambassador had made such a determination.

Recommendation 36: Embassy Rabat should cease all fundraising activities for private
organizations by mission employees, spouses, and family members until the Ambassador
determines that the activities are in the foreign policy interest of the United States and that there
is very little or no appearance of preference or use of public office for private gain. (Action:
Embassy Rabat)

        American embassy employees are being asked to donate American food products
purchased at the Embassy Cooperative Association commissary to sell at the American
International Women’s Association and Diplomatic Circle annual Christmas bazaars. The
proceeds of the sales of the products at the bazaars, which are open to the general public, go to
                                        38
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

local American International Women’s Association and Diplomatic Circle charities. The food
products being donated by embassy employees consist of packaged duty-free goods imported by
the employee association for the employee commissary and of American-brand specialty
products such as peanut butter, cake mix, and Kraft cheese. One CLO notice stated that these
products ―are not available locally but are in great demand by members of the American
International Women’s Association and the general public.‖ In fact, a special commissary order
is placed each year specifically to stock these specialty American food products for sale at the
bazaars. This practice is contrary to 6 FAM 540 regulations on access to packaged duty-free
goods, specifically 6 FAM 541 a. and b.

Recommendation 37: Embassy Rabat should cease the sale to unauthorized personnel of duty-
free packaged goods imported by the Embassy Cooperative Association. (Action: Embassy
Rabat)

Medical Unit

        A Foreign Service health practitioner, a full-time Moroccan nurse, two part-time nurses,
and an administrative assistant staff the medical unit. The mission community is generally
satisfied with the services provided by the health unit. The unit is located in the basement of the
chancery in an isolated location that is not conducive to patient care or comfort. Space and
privacy are limited, but the new embassy will have a modern, fully equipped unit.

        Moroccan medical facilities are inadequate, and therefore medical evacuations from
Rabat and Casablanca are numerous: 41 medical evacuations from Rabat in 2012 (compared to
13 from Cairo). Routine patient and mental health visits to the unit approach those of much
larger embassies, such as Cairo. In addition, the number of children in the embassy community
has grown and increased demands on the health unit.

        The regional medical officer has indicated that the embassy’s health practitioner is
overstretched. Both the regional medical officer and the regional psychiatrist agreed, jointly, to
spend a week in Rabat and Casablanca during the last week in February 2013.

Recommendation 38: The Office of Medical Services should conduct a staffing review of
Embassy Rabat’s health unit to determine the appropriate number and mix of health unit
professionals required to provide adequate medical care to the mission. (Action: MED)

Casablanca

        The medical unit is staffed solely by a local registered nurse. The health unit is located in
the basement of the consulate general and has an examination room and a separate office. The
nurse provides medical orientations to incoming staff, immunizations to staff and their
dependants, and CPR training to the motor pool drivers. The space is clean and well organized.
The nurse visits the embassy weekly for training and discussions with the Foreign Service health
practitioner.




                                        39
                            SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

Schools

                                    was teaching students from the embassy as of February
        [Redacted] (b) (5), [Redacted] (b) (6)           [Redacted] (b) (5), [Redacted] (b) (6)



2013. Embassy children receive priority admission. [Redacted] (b) (5), [Redacted] (b) (6)
                                                                                       . In survey
questionnaires embassy staff gave the school varying scores, ranging from high to below
average. One complaint among a few members of the embassy staff was the stringency of the
[Redacted] (b) (5), [Redacted] (b) (6)                                                            [Redacted] (b) (5), [Redacted] (b) (6)
                                                      . Sponsored by the Department, the school
has a constructive relationship with the embassy that benefits both parties. The Department
provided $23,500 for security improvements in FY 2013. The OIG team reviewed the school’s
security posture and found no deficiencies. Two of the board's nine voting members are embassy
officers. The embassy and board maintain an active dialogue with respect to the school’s
prospective relocation from its current campus, less than 2 miles from the chancery, which can
no longer accommodate growth.

        [Redacted] (b) (5), [Redacted] (b) (6)




                                                                                                                           The
school received $65,000 from the Department in soft target funding [Redacted] (b) (5)
                       [Redacted] (b) (5), [Redacted] (b) (6)
                                                                   . Although parents generally seem
happier with [Redacted] (b) (5), [Redacted] (b) (6) , several expressed concern that it was not as
challenging academically as it should be. Many people at the consulate general believe that
academic standards are higher at [Redacted] (b) (5), [Redacted] (b) (6)

        [Redacted] (b) (5), [Redacted] (b) (6) is sponsored by the Department, which in FY 2012
provided $15,000 to support salaries, buy educational materials and supplies, and support in-
service training. An additional $5,175 was supplied for a board retreat and training. The school
has approximately [Redacted] (b) (5), [Redacted] (b) (6)                                 The school also
received a $60,000 grant to upgrade its turnstiles to permit biometric or card entry. The system is
not fully operational, but plans are to make it so by March 2013. One member of the consulate
staff serves as a nonvoting member of the school board. Parents were dissatisfied last year with
the direction of the school board at [Redacted] (b) (5), [Redacted] (b) (6) . Since then, parents elected a
new school board and the school has a new director; the board and director appear to be trying to
move beyond the problems of the past.




                                              40
                                  SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Management Controls
       Management controls for Mission Morocco have been seriously deficient. Many factors
have contributed to this, not least the revolving door of mission management officials in Rabat
and Casablanca in recent years.

       The 2012 chief of mission management controls statement of assurance identified no
management control weaknesses; however, unauthorized commitments were numerous,
unliquidated obligations dated back to 2006, utility bills were so delinquent that services were
turned off, inventories were not within discretionary allowances, and no risk assessment
questionnaires were completed in preparation for the management control statement.

       The current management counselor arrived in summer 2012 and together with a
temporary duty financial management officer, has improved management controls. During the
course of the inspection, however, the OIG team and the management section continued to find
inaccuracies in inventory and contracts, as well as unauthorized commitments. In preparation for
the next assurance statement, the mission needs to complete work on an improvement plan to
resolve internal control problems.

Recommendation 39: Embassy Rabat should conduct a risk assessment of all management
functions in preparation for the 2013 chief of mission management controls statement of
assurance. (Action: Embassy Rabat)

        The OIG team identified some deficiencies in consular management controls. The backup
consular cashier in Casablanca has been approved for a cash advance but has not yet received it.
The second backup cashier has neither an advance nor a cash drawer, as required by 7 FAH-1 H-
742. If either of the backup cashiers is acting, he must scrounge for change in the mornings if
early customers do not have exact change. Although the second backup is rarely required to
serve as cashier, the consulate general plans to implement a procedure so that both backup
cashiers occasionally act as cashier to keep them current on procedures. It would also be more
efficient for each cashier to have a cash advance.

Recommendation 40: Embassy Rabat should issue a cash advance to the two backup consular
cashiers. (Action: Embassy Rabat)

Recommendation 41: Embassy Rabat should issue a cash drawer to the second backup consular
cashier. (Action: Embassy Rabat)

        The Class B cashier in Casablanca sometimes fails to provide a copy of Optional Form
158, the receipt for consular fees received, to the accountable consular officer no later than the
following day after receiving the funds, as required by 7 FAH-1 H-743.3. Failure to promptly
return this receipt delays an important check that documents the deposit of the full collection
amount.

Recommendation 42: Embassy Rabat should require the Class B cashier in Casablanca to return
a copy of the general receipt, Optional Form 158, to the accountable consular officer within 24
hours of receipt of funds from the consular cashier. (Action: Embassy Rabat)

                                        41
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Bureau of Near Eastern Affairs, in coordination with Embassy
Rabat, the Bureau of Overseas Buildings Operations, and the Under Secretary for Management,
should close Consulate General Casablanca (Action: NEA, in coordination with Embassy Rabat,
OBO, and M/PRI)

Recommendation 2: The Bureau of Near Eastern Affairs, in coordination with Embassy Rabat
and the Bureau of Overseas Buildings Operations, should identify and procure suitable property
adjacent to the new embassy compound for the construction of a consular annex. (Action: NEA,
in coordination with Embassy Rabat and OBO)

Recommendation 3: Embassy Rabat should establish an interagency working group on
commercial advocacy and export promotion. (Action: Embassy Rabat)

Recommendation 4: Embassy Rabat, in coordination with the Office of Management Policy,
Rightsizing and Innovation, should use the rightsizing exercise and report to prepare a plan for
adjusting International Cooperative Administrative Support Services positions, with the goal of
consolidating information technology and human resources services with those of the U.S.
Agency for International Development when the embassy relocates to the new embassy
compound. (Action: Embassy Rabat, in coordination with M/PRI)

Recommendation 5: Embassy Rabat should establish first- and second-tour professional
development and mentoring programs for Rabat and for Casablanca. (Action: Embassy Rabat)

Recommendation 6: Embassy Rabat, in coordination with the Bureau of Near Eastern Affairs
and the Bureau of Human Resources, should request the transfer of the economic officer,
position number 02-980001, from Consulate General Casablanca to Embassy Rabat upon the
departure of the incumbent. (Action: Embassy Rabat, in coordination with NEA and DGHR)

Recommendation 7: Embassy Rabat should redefine the responsibilities of the embassy’s
economic section as they relate to commercial work to align them with the Department of State
economic statecraft guidelines. (Action: Embassy Rabat)

Recommendation 8: Embassy Rabat should require public affairs staff members on the board
of the Moroccan-American Commission for Educational and Cultural Exchange to submit to the
Bureau of Educational and Cultural Affairs an evaluation of the performance of the
commission’s executive director. (Action: Embassy Rabat)

Recommendation 9: Embassy Rabat should require all locally employed staff members in the
public affairs section who act as grants officer representatives to complete appropriate online
grants training courses offered by the Foreign Service Institute by the deadline. (Action:
Embassy Rabat)

Recommendation 10: Embassy Rabat should eliminate two locally employed staff positions in
the information unit of the public affairs section. (Action: Embassy Rabat)

Recommendation 11: Embassy Rabat, in coordination with the Bureau of Near Eastern
Affairs, should eliminate the eligible family member program manager assistant position
                                                42
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

(number 88-94037002) in the public affairs section. (Action: Embassy Rabat, in coordination
with NEA)

Recommendation 12: Embassy Rabat should require the consular section to implement a
formal training program, including cross-training for locally employed staff in the consular
section. (Action: Embassy Rabat)

Recommendation 13: Embassy Rabat should reissue the worldwide visa referral policy and
enforce the Department of State requirement that the visa referral mechanism is the only
appropriate method for mission staff to advocate on behalf of visa applicants or to request
appointments for visa applicants. (Action: Embassy Rabat)

Recommendation 14: Embassy Rabat should provide the deputy chief of mission a monthly
report on all Class A and Class B visa referrals and on all communications outside the referral
system. (Action: Embassy Rabat)

Recommendation 15: Embassy Rabat should charge appropriate fees for diplomatic visas and
correct misinformation posted on its Web site. (Action: Embassy Rabat)

Recommendation 16: Embassy Rabat should require supervisory officers to complete reviews
of visa issuances and refusals. (Action: Embassy Rabat)

Recommendation 17: Embassy Rabat should complete and submit the results of validation
studies on student visas and visa referral cases to the Bureau of Consular Affairs, Office of Fraud
Prevention Programs. (Action: Embassy Rabat)

Recommendation 18: Embassy Rabat should require the assistant regional security officer-
investigations in Casablanca to spend 80 percent of his work hours on visa and passport fraud.
(Action: Embassy Rabat)

Recommendation 19: Embassy Rabat should establish missionwide motor vehicle and
housing policies consistent with relevant Foreign Affairs Manual guidelines. (Action: Embassy
Rabat)

Recommendation 20: Embassy Rabat should require Consulate General Casablanca to collect
fees for school transport. (Action: Embassy Rabat)

Recommendation 21: Embassy Rabat should reduce the deputy chief of mission’s official
residence expense staff to authorized levels. (Action: Embassy Rabat)

Recommendation 22: Embassy Rabat should review official residence expense staff levels
and provide the Bureau of Near Eastern Affairs with a response on reducing the official
residence expense staff levels at the chief of mission residence. (Action: Embassy Rabat)

Recommendation 23: Embassy Rabat should develop a hiring and employment policy for
official residence expense staff and require that all employment contracts for official residence
expense staff members conform to Department of State regulations, local law, and prevailing
practice. (Action: Embassy Rabat)


                                       43
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 24: Consulate General Casablanca should complete and submit its post
hardship differential survey report. (Action: Embassy Rabat)

Recommendation 25: Embassy Rabat should establish an International Cooperative
Administrative Support Services budget committee. (Action: Embassy Rabat)

Recommendation 26: Embassy Rabat, in coordination with the Bureau of the Comptroller and
Global Financial Services, should rebid the current banking services contract. (Action: Embassy
Rabat, in coordination with CGFS)

Recommendation 27: Embassy Rabat should request a Bureau of Human Resources review of
its withholding of Moroccan taxes and take appropriate steps consistent with Moroccan law.
(Action: Embassy Rabat, in coordination with DGHR)

Recommendation 28: Embassy Rabat should convene a survey board to determine the status
of missing property and take corrective actions as necessary. (Action: Embassy Rabat)

Recommendation 29: Embassy Rabat should establish a preventive maintenance plan for U.S.
Government-owned and long-term leased properties in Rabat and Casablanca. (Action: Embassy
Rabat)

Recommendation 30: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Rabat, should provide funds and project management oversight to repair the structural
damage to the pavilion building at the Tangier American Legation. (Action: OBO, in
coordination with Embassy Rabat)

Recommendation 31: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Rabat, should replace the extra fiber optic cable that runs to each workstation in the
new embassy compound with category 6 cables with Ethernet connectors. (Action: OBO, in
coordination with Embassy Rabat)

Recommendation 32: Embassy Rabat, in coordination with the Bureau of Overseas Buildings
Operations, should either sell the temporary duty quarters currently maintained by Embassy
Rabat’s employee association or include it in a property swap for a consular annex site. (Action:
Embassy Rabat, in coordination with OBO)

Recommendation 33: Embassy Rabat should restrict community liaison office involvement
and funding to activities that benefit the entire embassy community, such as newcomers’
orientation and morale and recreation events and programs. (Action: Embassy Rabat)

Recommendation 34: Embassy Rabat should suspend the honorary chairmanship of the
Ambassador’s spouse for the American International Women’s Association until it obtains the
required authorizations from the Office of the Legal Adviser. (Action: Embassy Rabat, in
coordination with L)

Recommendation 35: Embassy Rabat should cease all fundraising activities by the
Ambassador’s spouse until it has obtained the required authorization from the Office of the Legal
Adviser and the deputy assistant secretary of the Bureau of Near Eastern Affairs. (Action:
Embassy Rabat, in coordination with L and NEA)

                                       44
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Recommendation 36: Embassy Rabat should cease all fundraising activities for private
organizations by mission employees, spouses, and family members until the Ambassador
determines that the activities are in the foreign policy interest of the United States and that there
is very little or no appearance of preference or use of public office for private gain. (Action:
Embassy Rabat)

Recommendation 37: Embassy Rabat should cease the sale to unauthorized personnel of duty-
free packaged goods imported by the Embassy Cooperative Association. (Action: Embassy
Rabat)

Recommendation 38: The Office of Medical Services should conduct a staffing review of
Embassy Rabat’s health unit to determine the appropriate number and mix of health unit
professionals required to provide adequate medical care to the mission. (Action: MED)

Recommendation 39: Embassy Rabat should conduct a risk assessment of all management
functions in preparation for the 2013 chief of mission management controls statement of
assurance. (Action: Embassy Rabat)

Recommendation 40: Embassy Rabat should issue a cash advance to the two backup consular
cashiers. (Action: Embassy Rabat)

Recommendation 41: Embassy Rabat should issue a cash drawer to the second backup
consular cashier. (Action: Embassy Rabat)

Recommendation 42: Embassy Rabat should require the Class B cashier in Casablanca to
return a copy of the general receipt, Optional Form 158, to the accountable consular officer
within 24 hours of receipt of funds from the consular cashier. (Action: Embassy Rabat)




                                        45
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Rabat should require that the political section discuss
with the deputy chief of mission which cables could be approved by the political counselor
without deputy chief of mission review.

Informal Recommendation 2: Embassy Rabat should develop missionwide reporting plans for
political, economic, and international law enforcement reporting.

Informal Recommendation 3: Embassy Rabat should designate the deputy chief of mission to
chair the foreign assistance working group.

Informal Recommendation 4: Embassy Rabat should include the preparation of reporting
cables as part of the work requirements of American officers in the public affairs section.

Informal Recommendation 5: Embassy Rabat should require all sections to contribute content
for the embassy’s official Web site.

Informal Recommendation 6: Embassy Rabat should require the cultural affairs officer to
complete grants training and obtain a grants warrant.

Informal Recommendation 7: Embassy Rabat should require that meetings be held at least
monthly for all staff in the consular section.

Informal Recommendation 8: Embassy Rabat should include the Casablanca consular section
chief in country team meetings via digital video conference when possible.

Informal Recommendation 9: Embassy Rabat should establish an automatic response to
written inquiries about frequently asked consular questions.

Informal Recommendation 10: Embassy Rabat should reduce locally employed staff overtime.

Informal Recommendation 11: Embassy Rabat should include in its employment policies on
official residence expense staff procedures that eliminate a direct employee/employer
relationship between official residence expense staff members and the U.S. Government to
include direct salary deposits into their bank accounts.

Informal Recommendation 12: Embassy Rabat should review locally employed staff position
descriptions and correct those that are out of date.

Informal Recommendation 13: Embassy Rabat should update its locally employed staff
recruitment and hiring policy so that it is clear and comprehensive and post this policy on the
mission’s intranet site.
                                       46
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 14: Embassy Rabat should provide locally employed staff
members at the consulate general with training commensurate with their performed duties.

Informal Recommendation 15: Embassy Rabat should identify and train several locally
employed staff members as Equal Employment Opportunity liaisons.

Informal Recommendation 16: Embassy Rabat should train the new Equal Employment
Opportunity counselor.

Informal Recommendation 17: Embassy Rabat should name and train a Federal Women’s
Program coordinator.

Informal Recommendation 18: Embassy Rabat should require Consulate General Casablanca
to display a bulletin board with current Equal Employment Opportunity information in all
mission buildings in Casablanca.

Informal Recommendation 19: Embassy Rabat should require that Consulate General
Casablanca implement the Federal Women’s Program and name a coordinator.

Informal Recommendation 20: Embassy Rabat should use bulk funding to buy its purchase
cards.

Informal Recommendation 21: Embassy Rabat should designate a locally employed staff
member to be a certifying officer.

Informal Recommendation 22: Embassy Rabat should determine appropriate cashier hours,
disseminate them in a management notice, and enforce them.

Informal Recommendation 23: Embassy Rabat should enforce its policy prohibiting personal
vehicles on the embassy compound.

Informal Recommendation 24: Embassy Rabat should install a fire suppression system at the
American Center in Casablanca.

Informal Recommendation 25: Embassy Rabat should document the location of all
intermediate distribution frames and the respective area of the building served by each
intermediate distribution frame.

Informal Recommendation 26: Embassy Rabat should provide training for mission personnel
to create and administer record emails via the State Messaging and Archive Retrieval Toolset
system and hold employees accountable for complying with Department of State requirements
on its use.

Informal Recommendation 27: Embassy Rabat should implement procedures for Consulate
General Casablanca to coordinate with the embassy’s information management officer all leave
for information management staff in Consulate General Casablanca.

Informal Recommendation 28: Embassy Rabat should require Consulate General Casablanca
to conduct emergency destruction drills in accordance with Department of State requirements.

                                       47
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 29: Embassy Rabat should form a working group to address
communications and workplace relations between American and Moroccan staff.

Informal Recommendation 30: Embassy Rabat should modify the employee association
bylaws to allow board members to serve a term longer than 1 year.

Informal Recommendation 31: Embassy Rabat should establish a subcommittee of its board to
determine the future operational priorities of the commissary in light of the embassy’s upcoming
move to a new location.

Informal Recommendation 32: Embassy Rabat should instruct the employee association board
to conduct periodic internal control reviews of the association’s operations and update and keep
current its SharePoint Web site.

Informal Recommendation 33: Embassy Rabat should schedule biweekly meetings between
the deputy chief of mission and the community liaison office.




                                      48
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                             Name              Arrival Date

Ambassador                               Samuel Kaplan             10/2009
Deputy Chief of Mission                 Judith Chammas             08/2010
Constituent Post:
    Consulate General                     Brian Shukan             07/2011

Chiefs of Sections:
  Management                         Howard VanVranken             08/2012
  Consular                               Daniel Bazan              09/2010
  Political                              David Greene              05/2012
  Economic                               Phillip Nelson            08/2012
  Public Affairs                     Christopher Fitzgerald        08/2011
  Regional Security                        Ivan Wray               06/2012

Other Agencies:
   Foreign Agricultural Service           Sarah Hanson             09/2012
   Department of Defense             Col Stephen Bissonnette       06/2012
   Office of Defense                 LTC Gregory Marquez           07/2011
   Cooperation
   U.S. Commercial Service                 Jane Kitson             07/2009
    (Casablanca)
   U.S. Agency for International          John Groarke             07/2009
    Development
Overseas Buildings Operations             Aziz Younes              07/2012
International Narcotics and Law           Mark Baron               08/2011
Enforcement Affairs
Center for Disease Control and               Vacant
Prevention
Millennium Challenge                Muneera Salem-Murdock          10/2007
Corporation
Department of Justice                    Vasantha Rao              05/2012
Force Protection Detachment           Charles Humenansky           06/2012
Department of Homeland                 Gregory Manack              08/2010
Security (Casablanca)
Legal Attaché Office (FBI)               John Morton               06/2012
Peace Corps                            Margaret McClure            11/2011




                                      49
                          SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
CLO              Community liaison office

DCM              Deputy chief of mission

Department       Department of State

EEO              Equal Employment Opportunity

FAH              Foreign Affairs Handbook

FAM              Foreign Affairs Manual

FAST             First- and second-tour

ICASS            International Cooperative Administrative Support Services

LE               Locally employed (staff)

MCC              Millenium Challenge Corporation

NCC              New consulate compound

NEC              New embassy compound

OBO              Bureau of Overseas Buildings Operations

OIG              Office of Inspector General

USAID            U.S. Agency for International Development




                            50
                SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




SENSITIVE BUT UNCLASSIFIED
